<html>
<title> - EFFECTS OF CLIMATE CHANGE ON MARINE AND COASTAL ECOSYSTEMS IN WASHINGTON STATE</title>
<body><pre>[Senate Hearing 110-1152]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1152
 
     EFFECTS OF CLIMATE CHANGE ON MARINE AND COASTAL ECOSYSTEMS IN 
                            WASHINGTON STATE

=======================================================================

                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 27, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
75-204                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         GORDON H. SMITH, Oregon
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
BILL NELSON, Florida                 DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 27, 2008.....................................     1
Statement of Senator Cantwell....................................     1
Statement of Representative Inslee...............................     2

                               Witnesses

Bishop, Brett, Co-Owner, Little Skookum Shellfish Growers; on 
  Behalf of the Pacific Coast Shellfish Growers Association......    27
    Prepared statement...........................................    29
Inslee, Hon. Jay, U.S. Representative from Washington............     2
Klinger, Terrie, Associate Professor, School of Marine Affairs; 
  Adjunct Associate Professor, School of Aquatic and Fisheries 
  Sciences, University of Washington.............................    12
    Prepared statement...........................................    14
Koenings, Ph.D., Jeffrey P., Director, Department of Fish and 
  Wildlife, State of Washington..................................    23
    Prepared statement...........................................    25
Miles, Ph.D., Edward L., Virginia and Prentice Bloedel Professor 
  of Marine Studies and Public Affairs, School of Marine Affairs, 
  University of Washington.......................................    18
    Prepared statement...........................................    20
Ranker, Hon. Kevin, Member, San Juan County Council, State of 
  Washington.....................................................    30
    Prepared statement...........................................    33
Sabine, Ph.D., Christopher L., Oceanographer, Pacific Marine 
  Environmental Laboratory, NOAA, U.S. Department of Commerce....     5
    Prepared statement...........................................     7


                       EFFECTS OF CLIMATE CHANGE
                    ON MARINE AND COASTAL ECOSYSTEMS
                          IN WASHINGTON STATE

                              ----------                              


                         TUESDAY, MAY 27, 2008

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                       Seattle, WA.
    The Subcommittee met, pursuant to notice, at 10 a.m. at the 
Seattle Aquarium, 1483 Alaskan Way, Seattle, Washington, Hon. 
Maria Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Committee on Commerce, 
Science, and Transportation, Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard will come to order.
    We are here today in Seattle to do a field hearing on the 
effect of climate change on marine coastal ecosystems in 
Washington State. So thank you all very much for being here, 
and my thanks to the Seattle Aquarium for their hospitality.
    Today's hearing, as you can see, is the perfect venue for 
what we are going to be talking about, and each year, this 
aquarium gives hundreds of thousands of visitors a window into 
Washington's underwater wildlife. And so, today, we get to be 
here beneath that to see and understand what we need to be 
doing, more importantly, on the issue of climate change.
    Over the last 200 years, the oceans have absorbed nearly 
half of the CO<INF>2</INF> that basically has been emitted 
through combustion of fossil fuels. With the ocean's absorption 
of CO<INF>2</INF>, it reacts with seawater to form carbonic 
acid that ends up making our oceans more acidic.
    What are those impacts? Well, we are going to hear in more 
detail from the panelists today. But the impacts are to our 
salmon and other fisheries, the threat to the entire marine 
food chain, the increased water temperatures bring about new 
invasive species. The spread of dead zones because of the lack 
of oxygen in the water are a threat to all of our marine life, 
and obviously, the warming of our oceans portend to make a rise 
in sea levels that could have devastating impacts on lowlands 
and wetlands here in Washington State and around the Nation.
    So it is very important that we clearly understand the 
carbon emission impacts, what will happen in the marine 
environment, and the fact that they could be all too 
devastating here in Puget Sound. While this may not be easy to 
always understand the physical impacts, the warning signals are 
there, and we need to examine them, more importantly.
    Fortunately, we know that we can have an impact on climate 
change, and when we return to the U.S. Senate next week, we 
will be having a Senate discussion on the climate change bill 
on the floor of the U.S. Senate. We hope to pass that 
legislation over to the House of Representatives for their 
action.
    And just recently, last year, the Energy Independence and 
Security Act was passed, which set a new standard for the fuel 
efficiency of automobiles, more efficiency in lighting and 
appliances, and to make a mandate on alternative fuels based on 
a nonfood source.
    All these things together by 2030 would help us displace 
the equivalent of one-third of our foreign oil needs, save 
American consumers a half trillion dollars in energy costs, and 
reduce our Nation's carbon dioxide emissions by that same 
amount.
    So we know we have lots of work to do. And we know that 
landmark legislation is needed. The reality is, though, our 
government at this point in time is ill-equipped to deal with 
the consequences of climate change. That is why I was proud to 
author the Climate Change Adaptation Act bill that would direct 
the Federal Government to start planning for climate change and 
its impact on marine resources. This bill has been passed out 
of the Commerce Committee and is now waiting for action on the 
Senate floor.
    We also have been working on the Federal Ocean 
Acidification Research and Monitoring Act legislation that was 
sponsored by my colleague Senator Frank Lautenberg from New 
Jersey and would establish a much-needed research program on 
ocean acidification.
    The time now is for the Federal Government to take the 
right steps in the right direction. I believe that these two 
bills are important vehicles for us to move forward on the 
right path in helping the health of our oceans.
    Planning for the future isn't just common sense. It is 
responsible government, and this hearing is an important step 
in the input that we need to continue to take those important 
steps of protecting our oceans and certainly in protecting 
Puget Sound.
    So I want to thank my colleague, Congressman Inslee, who 
has joined me from the House of Representatives today for this 
Senate field hearing. He is a member of the House Energy and 
Commerce Committee and the House Natural Resources Committee 
and has spent many hours talking and hearing about these issues 
and certainly joins me in an effort to try to better understand 
the impact of CO<INF>2</INF> on our oceans and what we need to 
do to protect marine life in the Puget Sound area.
    So, Congressman, we thank you for being here.

                 STATEMENT OF HON. JAY INSLEE, 
              U.S. REPRESENTATIVE FROM WASHINGTON

    Representative Inslee. Thank you. Thank you, Senator.
    I hope people know that we have an absolute champion in the 
U.S. Senate on the energy issues that are necessary to stop 
this depletion of the oceans, and that is Senator Cantwell. She 
most recently has been a champion to adopt a package for 
renewable tax credits for clean energy sources that could help 
solve this problem, and she has been doing great work in the 
U.S. Senate.
    My comments, I wanted to share with you two memories--one 
piece of extremely disturbing news and one piece of good news. 
First, the memories.
    My dad was the biology teacher at Garfield High School, and 
maybe even taught Jimi Hendrix biology, I am not sure. But my 
earliest memories are being at Carkeek Park and my dad showing 
me the sea lion from the shorelines of Carkeek Park. It was an 
absolute thrill for me at age, I don't know, 4 or 5 to go down 
there and see that lion.
    That life has diminished now at Carkeek Park. What I saw at 
Carkeek Park in 1956 and 1957 isn't there as much as it used to 
be, and we are in a continuing decline for some of the reasons 
we will talk about today.
    The second memory is a picture, a movie. My favorite movie 
of my wife is when she was 10 years old catching a salmon right 
here on Old Kinder Road out at Ray's Boathouse, if anybody is 
old enough to remember that. The best picture I have ever seen 
of her. Those are memories that we want our grandkids to have. 
And those memories today are at risk because of the 
constellation of issues that we are going to hear about.
    Now, here is the problem. We know about sea temperature 
rising due to climate change. We know about sea level rising 
due to climate change. We know about wind and wave patterns 
changing due to climate change. Fairly well known.
    But there has been an absolute bomb explode in the 
scientific community in the last 2 years, and that is the 
silent assassin of ocean acidification, and that is what I want 
to focus on today.
    In May 1996, we had a doctor named Ken Caldeira from 
Stanford and some of his colleagues that I invited to the 
House. And he came and dropped a little bomb in our laps, and 
that was that even if we could figure out a way to stop the 
climate from changing and could decrease the CO<INF>2</INF>, 
that all this was going into the oceans and acidifying the 
oceans 30 percent--30 percent more ocean acidification, 30 
percent more of those ions in the ocean than in pre-industrial 
times.
    And he went on to explain about the calcification that 
occurs where these little tiny zooplankton and pteropods have 
to take calcium to form a substrate for their life. Probably 40 
to 50 percent of the bottom of the food chain is dependent on 
this, and this is greatly threatened by ocean acidification.
    Nothing is more potentially dangerous to humanity than 
ocean acidification, I believe, as the first big problem that 
we are going to face, and that is because we receive a 
significant part of our protein from the ocean. And that is 
greatly, greatly threatened.
    So the good news is, we have some of the world's best 
scientists today on this panel, that I am very appreciative. 
But there is no solution to this problem, except reduction of 
carbon dioxide. That is the only solution to prevent us from 
essentially depopulating the bottom of the food chain in the 
oceans.
    I also want to say that this is not a problem for tomorrow, 
and all of this kind of thing, global warming, is a problem for 
the next several decades. It is a problem today. Almost 80 
percent of the coral reefs in our national parks in the Virgin 
Islands are dead today because of a combination of bleaching 
associated with water temperature and perhaps ocean 
acidification. This is a problem today.
    But it is a problem that ought to unite us. You know, I 
hear still some of my colleagues in Congress that are still 
adopting the posture of the ostrich with their head in the sand 
when it comes to climate change. They want to say there is some 
debate about this. Well, fine. But there is no debate about 
ocean acidification. That carbon dioxide is going into the 
ocean. No one debates that. This ought to be a unifying theory 
on this.
    Now, we are starting to see some progress. I just want to 
leave it on a good note. Due to Senator Cantwell's great work 
in the Senate, we are starting to see some progress. I passed 
an amendment to the Magnuson reauthorization bill to require 
study of the ocean acidification. A year or so ago, I sponsored 
a bill somewhat similar to Cantwell's in the House.
    But the real work we need to do is to decarbonize the 
energy system of America. And when we do that, we will stop the 
acidification of the ocean, and we will build the largest 
economic expansion America has seen when we go to solar thermal 
power, solar photovoltaic power, wind energy, enhanced 
geothermal power, electric vehicles, energy efficient 
buildings. And when we do this, this is how we are going to 
solve this problem. We are going to grow our economy at the 
same time.
    So I am optimistic about doing it, and I want to thank 
Senator Cantwell for her leadership in being here today.
    Senator Cantwell. Thank you, Congressman Inslee, for 
working with me on that legislation, including getting the 
energy tax credits passed so that we can make sure that we have 
a predictable tax law for renewable energy.
    Well, let us welcome our panel here today. Thank you. You 
are a very distinguished set of guests testifying before this 
Senate subcommittee. We appreciate you being here today.
    Joining us is Dr. Chris Sabine, Oceanographer with the 
National Oceanic and Atmospheric Administration at the Pacific 
Marine Environmental Laboratory. Dr. Sabine is an expert on 
ocean acidification and the author of a recent article, 
``Evidence for Upwelling of Corrosive `Acidified' Water onto 
the Continental Shelf.'' Welcome. Thank you for being here.
    Dr. Terrie Klinger, University of Washington, Associate 
Professor at the School of Marine Affairs. Dr. Klinger is a 
marine biologist who looks at the effects on the environment of 
stressors, including climate change on marine ecosystems.
    Dr. Edward Miles, also of the University of Washington, 
from the School of Marine Affairs. Thank you very much for 
being here. Dr. Miles is the Co-Chair of the Climate Impacts 
Group. He performs fundamental research related to the 
implications of climate change for national fisheries, natural 
resources, and economic prospects. He has served as Chair of 
the Ocean Policy Committee for the National Academy of Sciences 
from 1974 to 1979 and has worked with the United Nations UNESCO 
on development of various policies.
    Our next witness will be Dr. Jeff Koenings, the Director of 
the Washington Department of Fish and Wildlife. Thank you for 
being here. I guess it all gets down to you as it relates to 
the local level here, or I should say at least to the State and 
local level. And he manages marine resources, land resources, 
including fisheries. And so, we appreciate you being here and 
your background in scientific study of water quality and 
nutrients.
    And following him will Brett Bishop, Owner of the Little 
Skookum Shellfish Growers. Thank you for representing the 
shellfish growers here today. I know you are going to give 
support testimony on the impact of a very vibrant industry for 
us in Washington State and how the changes in climate might 
impact that industry.
    And last, but certainly not least, Kevin Ranker, who is San 
Juan County Commissioner. And prior to taking office, Mr. 
Ranker worked for 15 years focusing on coastal and ocean 
policies being developed with local, national, and 
international organizations. Mr. Ranker currently serves as a 
member of Puget Sound Ecosystem Coordination Board.
    So thank you all very much for being here. And while this 
is an official hearing and I am not going to time you, but if 
you could keep your remarks to 5 or 6 minutes, that would help 
us in getting questions to you at the end of that time period.
    Mr. Sabine, we are going to start with you. And thank you 
very much for being here today.

           STATEMENT OF CHRISTOPHER L. SABINE, Ph.D.,

         PACIFIC MARINE ENVIRONMENTAL LABORATORY, NOAA,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Sabine. Good morning, Madam Chairwoman.
    Senator Cantwell. And you are probably going to have to 
pull that microphone a little closer to make sure we can hear.
    Dr. Sabine. Good morning, Madam Chairwoman. Can you hear 
me?
    Senator Cantwell. A little closer. The acoustics here might 
be a little challenging. So----
    Dr. Sabine. Good morning, Madam Chairwoman and Congressman 
Inslee. I am Dr. Christopher Sabine. I am a chemical 
oceanographer at NOAA's Pacific Marine Environmental Laboratory 
located here in Seattle. I also serve as an affiliate faculty 
member of oceanography at the University of Washington and as a 
senior fellow for the Joint Institute for the Study of Oceans 
and Atmosphere at the University of Washington. Thank you for 
inviting me to be a witness at this hearing.
    My colleague Dr. Richard Feely and I have conducted several 
research projects to improve our understanding of climate 
change and ocean acidification in open ocean and coastal 
waters, including the West Coast of the United States and the 
Puget Sound region.
    Today, I will focus on just one aspect of that research, 
the upwelling of Pacific waters onto the continental shelf. The 
results of this research were published last Thursday in 
Sciencexpress.
    Over the last two decades, NOAA and the National Science 
Foundation have co-sponsored high traffic and chemical surveys 
of the world's oceans to study the response to rising 
atmospheric carbon dioxide. These studies have confirmed that 
the oceans are currently absorbing approximately one-third of 
the carbon dioxide emissions from human activity.
    These studies have also documented chemical changes in 
seawater resulting from the absorption of this carbon dioxide, 
which are increasing the acidity of the seawater and lowering 
its pH, the scale we use to measure acidity.
    The decomposition of dead and sinking organisms naturally 
makes deep ocean waters corrosive to the shells and skeletons 
of calcium-carbonate creating organisms such as corals, clams, 
oysters, mussels, sea urchins, and pteropods. The depth at 
which these shells begins to dissolve is called the carbonate 
saturation horizon. The ocean uptake of manmade carbon dioxide 
has caused the saturation horizon to rise toward the surface by 
as much as 100 to 200 meters since the beginning of the 
Industrial Revolution.
    In the North Pacific, the saturation horizon is naturally 
between 100 and 400 meters, but is getting shallower at a rate 
of 1 to 2 meters each and every year. Ocean model projections 
based on future carbon dioxide emission scenarios have 
suggested that the saturation horizon could break the surface 
of the North Pacific within the next 50 to 100 years, exposing 
living organisms at the ocean surface to corrosive waters.
    During the 2004 survey, which went from Japan to San Diego, 
we noticed that the corrosive waters came very close to the 
continental shelf of North America. To learn more about this 
phenomenon, we brought together regional experts such as Debby 
Ianson from the Institute of Ocean Sciences in Canada, Burke 
Hales from Oregon State University, and Martin Hernandez-Ayon 
from the University of Autonoma in Mexico to help us design a 
survey to run from Queen Charlotte Sound in Canada to the tip 
of the Baja Peninsula in Mexico, with the goal of evaluating 
the state of ocean acidification along the continental shelf.
    These experts helped us to determine the optimum sampling 
strategy that we needed to participate on the cruise that was 
conducted in May and June of 2007, last summer. I do not 
believe that any of us anticipated the results that we actually 
found.
    Our measurements showed that upwelling along the West Coast 
of North America is now drawing water from below the saturation 
horizon and up onto the continental shelf. This upwelling 
happens during the spring and summer months when winds push 
surface waters away from the coast and draw carbon dioxide-rich 
waters from about 150 to 200 meters depth in the open ocean to 
much shallower depths up on the continental shelf.
    In fact, we observed that some of the low pH corrosive 
waters had actually upwelled all the way to the surface off of 
Northern California.
    Our estimates of manmade carbon dioxide contributions to 
these waters suggest that prior to the rise in atmospheric 
carbon dioxide, the saturation horizon was too deep to be 
reached by coastal upwelling. In other words, this is a 
relatively recent phenomenon.
    Before we started this work, no one considered that the 
corrosive offshore waters could be affecting shallower coastal 
ecosystems today. However, our findings represent the first 
evidence that large sections of the North American continental 
shelf are already being seasonally impacted by ocean 
acidification and that shelf organisms are being exposed to 
corrosive waters even at the surface.
    Our research focused on understanding the chemistry and did 
not directly evaluate biological impacts to these corrosive 
waters. However, the fact that extensive upwelling occurs all 
along the West Coast of North America and given the importance 
of fisheries, particularly shellfish, on the U.S. continental 
shelf, the potential biological consequences of these new 
findings need to be assessed immediately.
    Where we thought we had another 50 years to figure out the 
consequences of these corrosive waters reaching the ocean's 
surface, we are finding that it is happening today right 
outside our back door.
    Thank you again for inviting me to testify, and I will be 
happy to answer any questions you may have.
    [The prepared statement of Dr. Sabine follows:]

  Prepared Statement of Christopher L. Sabine, Ph.D., Pacific Marine 
      Environmental Laboratory, NOAA, U.S. Department of Commerce

    Good morning, Chairman Cantwell and Members of the Subcommittee. 
Thank you for giving me the opportunity to speak with you today on the 
effects of climate change on marine and coastal ecosystems in 
Washington State. My name is Christopher Sabine, I am an Oceanographer 
at the Pacific Marine Environmental Laboratory of the National Oceanic 
and Atmospheric Administration (NOAA) in Seattle, Washington.
    My research focuses on understanding the global carbon cycle. In 
particular, my work centers around interpreting inorganic carbon 
measurements in the oceans. On Thursday, May 22, 2008, my colleagues 
and I published a paper in Science Magazine entitled: ``Evidence for 
Upwelling of Corrosive `Acidified' Water onto the Continental Shelf.''
    The absorption of atmospheric carbon dioxide into the ocean lowers 
the pH of the waters. This so-called ocean acidification could have 
important consequences for marine ecosystems. In order to better 
understand the extent of this ocean acidification in coastal waters, we 
conducted hydrographic surveys from central Canada to northern Mexico. 
We observed seawater that is undersaturated with respect to aragonite 
upwelling onto large portions of the continental shelf, reaching depths 
of approximately 40 to 120 m along most transect lines and all the way 
to the surface on one transect off northern California. While seasonal 
upwelling of the undersaturated waters onto the shelf is a natural 
phenomenon in this region, the ocean uptake of anthropogenic 
CO<INF>2</INF> has increased the areal extent of the affected area.
    The Science paper is appended here as the scientific basis of my 
testimony.
                               Attachment

                   Sciencexpress--Report--22 May 2008

   Evidence for Upwelling of Corrosive ``Acidified'' Water onto the 
                           Continental Shelf

  Richard A. Feely,\1\ Christopher L. Sabine,\1\ J. Martin Hernandez-
               Ayon,\2\ Debby Ianson,\3\ Burke Hales \4\
---------------------------------------------------------------------------

    \1\ Pacific Marine Environmental Laboratory/NOAA, 7600 Sand Point 
Way NE, Seattle, WA 98115-6349, USA.
    \2\ Instituto de Investigaciones Oceanologicas. Universidad 
Autonoma de Baja California. Km. 103 Carr. Tijuana-Ensenada. Ensenada. 
Baja California. Mexico.
    \3\ Fisheries and Oceans Canada, Institute of Ocean Science, P.O. 
Box 6000, Sidney, BC V8L 4B2, Canada.
    \4\ College of Oceanic and Atmospheric Sciences, Oregon State 
University, 104 Ocean Admin. Bldg., Corvallis, OR 97331-5503, USA.

    The absorption of atmospheric carbon dioxide into the ocean lowers 
the pH of the waters. This so-called ocean acidification could have 
important consequences for marine ecosystems. In order to better 
understand the extent of this ocean acidification in coastal waters, we 
conducted hydrographic surveys from central Canada to northern Mexico. 
We observed seawater that is undersaturated with respect to aragonite 
upwelling onto large portions of the continental shelf, reaching depths 
of approximately 40-120 m along most transect lines and all the way to 
the surface on one transect off northern California. While seasonal 
upwelling of the undersaturated waters onto the shelf is a natural 
phenomenon in this region, the ocean uptake of anthropogenic 
CO<INF>2</INF> has increased the areal extent of the affected area.
    Over the past 250 years the release of carbon dioxide 
(CO<INF>2</INF>) from industrial and agricultural activities has 
resulted in atmospheric CO<INF>2</INF> concentrations that have 
increased by about 100 parts per million (ppm). The atmospheric 
concentration of CO<INF>2</INF> is now higher than it has been for at 
least the last 650,000 years, and is expected to continue to rise at an 
increasing rate, leading to significant changes in our climate by the 
end of this century.\1\. Since the beginning of the industrial era, the 
oceans have absorbed approximately 127 <plus-minus> 18 billion metric 
tons of carbon as carbon dioxide from the atmosphere, or about one-
third of the anthropogenic carbon emissions released.\2\ This process 
of absorption of anthropogenic CO<INF>2</INF> has benefited humankind 
by significantly reducing the greenhouse gas levels in the atmosphere 
and minimizing some of the impacts of global warming. However, the 
ocean's daily uptake of 30 million metric tons of carbon dioxide is 
significantly impacting its chemistry and biology. Recent hydrographic 
surveys and modeling studies have confirmed that the uptake of 
anthropogenic CO<INF>2</INF> by the oceans has resulted in a lowering 
of seawater pH by about 0.1 since the beginning of the industrial 
revolution.<SUP>3-7</SUP> This phenomenon, which is commonly called 
``ocean acidification,'' could affect some of the most fundamental 
biological and geochemical processes of the sea in the coming decades 
and could seriously alter the fundamental structure of pelagic and 
benthic ecosystems.\8\
    Estimates of future atmospheric and oceanic carbon dioxide 
concentrations, based on the Intergovernmental Panel on Climate Change 
(IPCC) CO<INF>2</INF> emission scenarios and general circulation 
models, indicate that atmospheric carbon dioxide levels could exceed 
500 parts per million (ppm) by the middle of this century, and 800 ppm 
near the end of the century. This increase would result in a surface 
water pH decrease of approximately 0.4 pH units, and a corresponding 50 
percent decrease in carbonate ion concentration by the end of the 
century.<SUP>5,9</SUP> Such rapid changes are likely to negatively 
impact marine ecosystems, seriously jeopardizing the multifaceted 
economies that currently depend on them.\10\
    The reaction of CO<INF>2</INF> with seawater reduces the 
availability of carbonate ions that are necessary for calcium carbonate 
(CaCO<INF>3</INF>) skeleton and shell formation for a number of marine 
organisms such as corals, marine plankton, and shellfish. The extent to 
which the organisms are affected is largely dependent upon the calcium 
carbonate (CaCO<INF>3</INF>) saturation state (V), which is the product 
of the concentrations of Ca<SUP>2+</SUP> and 
CO<INF>3</INF><SUP>2-</SUP> divided by the apparent stoichiometric 
solubility product for either aragonite or calcite:

Varag =                        [Ca+2] [CO3	2]/K'sparag         (1)

Vcal =                         [Ca+2] [CO3	2]/K'spcal          (2)


    where the calcium concentration is estimated from the salinity, and 
the carbonate ion concentration is calculated from the dissolved 
inorganic carbon (DIC) and total alkalinity (TA) measurements.\11\ In 
regions where Varag or Vcal is > 1.0 the formation of shells and 
skeletons is favored. Below a value of 1.0 the water is corrosive and 
dissolution of pure aragonite and unprotected aragonite shells will 
begin to occur.\12\ Recent studies have demonstrated that in many 
regions of the ocean the aragonite saturation horizon shoaled as much 
as 40-200 m as a direct consequence of the uptake of anthropogenic 
CO<INF>2</INF>.<SUP>3,5,6</SUP> It is shallowest in the northeastern 
Pacific Ocean, only 100-300 m from the ocean surface, allowing for the 
transport of undersaturated waters onto the continental shelf during 
periods of upwelling.
    In May and June of 2007, we conducted a North American Carbon 
Program (NACP) West Coast Cruise on the Research Ship Wecoma along the 
continental shelf of western North America, completing a series of 13 
cross-shelf transects from Queen Charlotte Sound, Canada to San 
Gregorio Baja California Sur, Mexico (Fig. 1). Full water column 
conductivity-temperature-depth-rosette (CTDR) stations were occupied at 
specified locations along each transect (Fig. 1). Water samples were 
collected in modified Niskin-type bottles and analyzed for DIC, TA, 
oxygen, nutrients and dissolved and particulate organic carbon. 
Aragonite and calcite saturation, pHSW, and pCO<INF>2</INF> were 
calculated from the DIC and TA data.\11\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fig. 1. Distribution of the depths of the undersaturated water 
(aragonite saturation < 1.0; pH < 7.75) on the continental shelf of 
western North America from Queen Charlotte Sound, Canada to San 
Gregorio Baja California Sur, Mexico. On transect lines 5 the corrosive 
water reaches all the way to the surface in the inshore waters near the 
coast. The black dots represent station locations.

    The central and southern coastal region off western North America 
is strongly influenced by seasonal upwelling which typically begins in 
early spring when the Aleutian low pressure system moves to the 
northwest and the Pacific High moves northward, resulting in a 
strengthening of the northwesterly winds.<SUP>13,14</SUP> These winds 
drive net surface water Ekman transport offshore, which induces the 
upwelling of CO<INF>2</INF>-rich intermediate depth (100-200 m) 
offshore waters onto the continental shelf. The upwelling lasts until 
late summer or fall when winter storms return.
    During the cruise, various stages and strengths of upwelling were 
observed from line 2 off central Vancouver Island to line 11 off Baja 
California, Mexico. We observed recent upwelling on lines 5 and 6 near 
the Oregon-California border. Coincident with the upwelled waters, we 
found evidence for undersaturated, low pH seawater in the bottom waters 
as depicted by Varag values < 1.0 and pH values < 7.75. The corrosive 
waters reached mid-shelf depths of approximately 40-120 m along lines 
2-4, and 7-13 (Fig. 1). In the region of the strongest upwelling (line 
5), the isolines of Varag = 1.0, DIC = 2190 and pH = 7.75 closely 
followed the 26.2 potential density surface (Fig. 2). This density 
surface shoaled from a depth of 150 m in the offshore waters and 
breached the surface over the shelf near the 100 m bottom contour, 
approximately 40 km from the coast. This shoaling of the density 
surfaces and CO<INF>2</INF>-rich waters as one approaches land is 
typical of strong coastal upwelling conditions.<SUP>15-18</SUP> The 
surface water pCO<INF>2</INF> on the 26.2 potential density surface was 
about 850 matm near the shelfbreak and higher inshore (Fig. 2), 
possibly enhanced by respiration processes on the shelf.\17\ These 
results indicate that the upwelling process caused the entire water 
column shoreward of the 50 m bottom contour to become undersaturated 
with respect to aragonite, a condition that was not predicted to occur 
in open-ocean surface waters until 2050.\5\ On line 6, the next 
transect south, the undersaturated water was close to the surface at 
approximately 22 km from the coast. The lowest Varag values (< 0.60) 
observed in the near-bottom waters of the continental shelf 
corresponded with pH values close to 7.5. Since the calcite saturation 
horizon is located between 225-400 m in this part of the northeastern 
Pacific,\19\ it is still too deep to shoal onto the continental shelf. 
Nevertheless, the calcite saturations values drop in the core of the 
upwelled water (Vcal < 1.3).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fig. 2. Vertical sections of: (A) temperature, (B) aragonite 
saturation, (C) pH, (D) DIC and (E) pCO<INF>2</INF>, on transect line 5 
off Pt. St. George, California. Note that the potential density 
surfaces are superimposed on the temperature section. The 26.2 
potential density surface delineates the location of the first instance 
of the undersaturated water being upwelled from depths of 150-200 m 
onto the shelf and outcropping at the surface near the coast. The black 
dots represent sample locations.
    As noted, the North Pacific aragonite saturation horizons are among 
the shallowest in the global ocean.\3\ The uptake of anthropogenic 
CO<INF>2</INF> has caused these horizons to shoal by 50-100 m since 
pre-industrial times so that they are within the density layers that 
are currently being upwelled along the west coast of North America. 
Although much of the corrosive character of these waters is the natural 
result of respiration processes at intermediate depths below the 
euphotic zone, this region continues to accumulate more anthropogenic 
CO<INF>2</INF> and, therefore, the upwelling processes will expose 
coastal organisms living in the water column or at the seafloor to less 
saturated waters exacerbating the biological impacts of ocean 
acidification.
    Based on our observed O<INF>2</INF> values and estimated 
O<INF>2</INF> consumption rates on the same density surfaces,\20\ the 
upwelled water off northern California (line 5) was last at the surface 
about 50 years ago when atmospheric CO<INF>2</INF> was about 65 ppm 
lower than today. The open ocean anthropogenic CO<INF>2</INF> 
distributions in the Pacific have been estimated 
previously.<SUP>19,4,21</SUP> By determining the density-dependence of 
anthropogenic CO<INF>2</INF> distributions in the eastern-most North 
Pacific stations of the Sabine et al \21\ data set, we estimate that 
these upwelled waters contain approximately 31 <plus-minus> 4 umol kg-1 
anthropogenic CO<INF>2</INF> (fig. S2). Removing this signal from the 
DIC increases the aragonite saturation state of the waters by about 0.2 
units. Thus, without the anthropogenic signal, the equilibrium 
aragonite saturation level (Varag = 1) would be deeper by about 50 m 
across the shelf, and no undersaturated waters would reach the surface. 
Water already in transit to upwelling centers is carrying increasing 
anthropogenic CO<INF>2</INF> and more corrosive conditions to the 
coastal oceans of the future. Thus the undersaturated waters, which 
were mostly a problem for benthic communities in the deeper waters near 
the shelf break in the pre-industrial era, have shoaled closer to the 
surface and near the coast because of the additional inputs of 
anthropogenic CO<INF>2</INF>.
    These observations clearly show that seasonal upwelling processes 
enhance the advancement of the corrosive deep water into broad regions 
of the North American western continental shelf. Since the region 
experiences seasonal periods of enhanced aragonite undersaturation, it 
is important to understand how the indigenous organisms deal with this 
exposure and whether or not future increases in the range and intensity 
of the corrosiveness will affect their survivorship. Presently, little 
is known about how this intermittent exposure to corrosive water might 
impact the development of larval, juvenile and adult stages of 
aragonitic calcifying organisms or finfish that populate the neritic 
and benthic environments in this region and fuel a thriving economy. 
Laboratory and mesocosm experiments show that these changes in 
saturation state may cause significant changes in overall calcification 
rates for many species of marine calcifiers including corals, 
coccolithophores, foraminifera and pteropods, which are a significant 
food source for local juvenile salmon.<SUP>8,22-30</SUP> Similar 
decreases in calcification rates would be expected for edible mussels, 
clams and oysters.<SUP>22,31</SUP> Other research indicates that many 
species of juvenile fish and shellfish of significant economic 
importance to coastal regions are highly sensitive to higher-than-
normal CO<INF>2</INF> levels such that high rates of mortality are 
directly correlated with the higher CO<INF>2</INF> 
levels.<SUP>31,32</SUP> While comprehensive field studies of organisms 
and their response to sporadic increases in CO<INF>2</INF> along the 
western North American coast are lacking, current studies suggest that 
further research under field conditions is warranted. Our results show 
for the first time that a large section of the North American 
continental shelf is impacted by ocean acidification. Other continental 
shelf regions may also be impacted where anthropogenic CO<INF>2</INF>-
enriched water is being upwelled onto the shelf.
References and Notes
    1. U. Siegenthaler et al., Science 310, 1313 (2005).
    2. C.L. Sabine, R. A. Feely, in Greenhouse Gas Sinks, D. Reay, N. 
Hewitt, J. Grace, K. Smith, Eds. CABI Publishing, Oxfordshire, UK 
(2007).
    3. R.A. Feely et al., Science 305, 362 (2004).
    4. C.L. Sabine et al., Science 305, 367 (2004).
    5. J.C. Orr et al., Nature 437, 681 (2005).
    6. K. Caldeira, M.E. Wickett, Journal Of Geophysical Research-
Oceans 110 (2005).
    7. R.A. Feely et al., PICES Press 16(1), 22 (2008).
    8. J.A. Kleypas et al., Impacts of Increasing Ocean Acidification 
on Coral Reefs and Other Marine Calcifiers: A Guide for Future 
Research, report of a workshop held 18-20 April 2005, St. Petersburg, 
FL (2006), pp. 90.
    9. Solomon, S. et al., Eds, in Contribution of Working Group I to 
the Fourth Assessment Report of the Intergovernmental Panel on Climate 
Change, Cambridge Univ. Press, Cambridge, UK, and New York (2007).
    10. Royal Society, ``Ocean acidification due to increasing 
atmospheric carbon dioxide'' (The Royal Society, 2005).
    11. The details of the analytical methods and calculations for the 
carbonate system and anthropogenic CO<INF>2</INF> are given in the 
supporting online material.
    12. R.A. Feely et al., Mar. Chem. 25, 227-241 (1988).
    13. B. Hickey, in The Sea, A. R. Robinson, K.H. Brink, Eds. (John 
Wiley and Sons, Inc., vol. II. (1998).
    14. J.T. Pennington, F.P. Chavez, Deep-Sea Res. II 47, 947 (2000).
    15. A. van Geen et al., Deep-Sea Res. Part II 47, 975-1002 (2000).
    16. G.E. Friederich, P.M. Walz, M.G. Burczynski, F.P. Chavez, 
Progress in Oceanography 54, 185 (2002).
    17. D. Ianson et al., Deep-Sea Res. Part I, 50, 1023-1042 (2003).
    18. B. Hales et al., Global Biogeochemical Cycles 19, doi: 10.1029/
2004GB002295 (2005).
    19. R.A. Feely et al., Global Biogeochemical Cycles 16, art. no. 
1144 (2002).
    20. R.A. Feely et al., J. of Oceanography 60(1), 45-52 (2004).
    21. C.L. Sabine et al., Global Biogeochem. Cycles 16, 4, 1083, doi: 
10.1029/2001GB001639 (2002).
    22. M.A. Green, M.E. Jones, C.L. Boudreau, R.L. Moore, B.A. 
Westman, Limnology And Oceanography 49, 727 (2004).
    23. J.M. Guinotte et al., Coral Reefs 22, 551 (2003).
    24. C. Langdon, M.J. Atkinson, Journal Of Geophysical Research-
Oceans 110, art. no. C09S07 (2005).
    25. H.J. Spero et al., Nature 390, 497 (1997).
    26. U. Riebesell et al., Nature 407, 364 (2000).
    27. I. Zondervan et al., Global Biogeochemical Cycles 15, 507 
(2001).
    28. B.A. Seibel, V. J. Fabry, Advances in Applied Biodiversity 
Science 4, 59 (2003).
    29. B. Delille et al., Global Biogeochemical Cycles 19, GB2023 
(2005).
    30. A. Engel et al., Limnology and Oceanography 50, 493 (2005).
    31. F. Gazeau et al., Geophys Res Lett. 34, L07603, doi: 10.1029/
2006GL028554. (2007).
    32. A. Ishimatsu et al., Journal of Oceanography 60, 731 (2004).
    33. We thank Captain Richard Verlini and the crew of the R/V Wecoma 
for logistics support. We also thank Dana Greeley, David Wisegarver, 
Paul Covert, and Sylvia Barry for the DIC and TA measurements. 
Financial support for this work was provided by the National Oceanic 
and Atmospheric Administration's Global Carbon Cycle Program and the 
National Aeronautical and Space Administration Ocean Biology and 
Biogeochemistry Program.
Supporting Online Material
www.sciencemag.org/cgi/content/full/1155676/DC1/2

Materials and Methods

Figs. S1 and S2

References

25 January 2008; accepted 13 May 2008
Published online 22 May 2008; 10.1126/science.1155676
Include this information when citing this paper.

    Senator Cantwell. Thank you, Mr. Sabine.
    Dr. Klinger, thank you very much for being here, and we 
look forward to hearing your testimony. I know we have some 
excited school children here, but that is what we want. We want 
them to be excited about the oceans. We want them to be healthy 
in the future so that they can continue to be excited.
    So you might have to--I think if you pull the microphone 
directly in front of you, if you can, and read your testimony.

             STATEMENT OF TERRIE KLINGER, ASSOCIATE

          PROFESSOR, SCHOOL OF MARINE AFFAIRS; ADJUNCT

           ASSOCIATE PROFESSOR, SCHOOL OF AQUATIC AND

          FISHERIES SCIENCES, UNIVERSITY OF WASHINGTON

    Dr. Klinger. Good morning, and thank you, Senator Cantwell 
and Congressman Inslee, for holding this hearing on this 
important and emerging issue. Thank you also for offering me 
the opportunity to testify today.
    My name is Terrie Klinger, and I am an Associate Professor 
in the School of Marine Affairs and Adjunct Associate Professor 
in the School of Aquatic and Fisheries Sciences at the 
University of Washington. My area of expertise is marine 
ecology and the application of natural science to policy and 
decisionmaking.
    I serve as the Chair and Research Representative of the 
Olympic Coast National Marine Sanctuary Advisory Council, as 
Governor Gregoire's representative on the Straits Commission, 
and as a member of the San Juan County's Climate Task Force.
    The issue of climate change as it impacts marine ecosystems 
is large and difficult, and it is made more challenging by the 
recent recognition that much of the carbon dioxide released to 
the atmosphere ends up in the ocean where it causes changes in 
ocean chemistry, and it profoundly influences the structure and 
function of marine ecosystems.
    The projected chemical changes are likely to interact with 
other stressors--for example, increasing temperature and low 
dissolved oxygen--to produce ecological effects that are larger 
and less predictable than the effects of any single stressor 
alone.
    In my testimony today, I want to do three things. I will 
describe a few of the ecosystem changes that are likely to 
occur, using examples from Puget Sound to illustrate these 
changes. I will then articulate some of the pressing research 
needs and will suggest some of the management and policy 
responses that could be made at a national level.
    I have submitted written testimony that develops each of 
these points more fully. I want to give you the sense of the 
scope of the problem and the urgency with which action must be 
taken in order to minimize risk to social, economic, and 
ecological systems.
    Changes in seawater chemistry caused by ocean acidification 
will make it more difficult for organisms to form skeletons and 
shells. Organisms are likely to grow more slowly, produce fewer 
offspring, suffer greater mortality in an acidified ocean. 
Calcareous organisms are particularly at risk, but other 
organisms are also vulnerable.
    In Puget Sound, it is likely the following species, such as 
oysters, clams, mussels, crabs, salmon, and kelp all will be 
negatively impacted, and it is conceivable that we will lose 
some of these species entirely over the next century. Species 
of concern are also at risk such as the non-calcifying 
organisms. Changes in the food web structure are likely, and 
essential habitats provided by invertebrates and mollusks.
    We urgently need strategic policy-relevant research to help 
us understand the changes that are likely to occur. Only 
through direct experimentation will we be able to parameterize 
models to forecast ecosystem change and to guide strategies to 
mitigate impacts on human health and the environment.
    Research priorities include improved capacity for 
monitoring chemical and biological changes, experiments to 
determine the range of physiological responses, and the 
potential for biologic adaptation and experimentation to 
determine the food web and other ecosystem impacts.
    To perform such research, we quickly need to build capacity 
and ocean monitoring in experimental facilities. For example, 
the establishment of the Friday Harbor Laboratories as a 
sentinel site for time series measurements, combined with the 
creation of a new experimental facility there, could serve the 
Nation as a center for research on ocean acidification and 
temperate ecosystems.
    Substantial funds are required to support ocean and coastal 
monitoring, the development of experimental facilities, and the 
performance of the research itself. The Federal Ocean 
Acidification Research and Monitoring Act is a critical first 
step in providing the requisite funding, but additional funds 
must be allocated to the research community to perform the work 
necessary to address this problem in an effective and timely 
manner.
    The research performed must guide management and policy. 
For this to occur, processes that integrate science into 
decisionmaking must be developed and implemented. Key 
management responses are likely to be more conservative harvest 
limits, greater consideration of food web effects, reductions 
in other human-induced stressors, and preservation of 
biological diversity and the capacity for biological 
adaptation.
    In summary, the challenges posed by climate change and 
ocean acidification are unprecedented. Serious sustained effort 
must be made to provide policy-relevant science and to 
implement policies that are reflective of this science and are 
sensitive to the rates and magnitudes of environmental change. 
Substantial new funding directed to universities and Federal 
agencies is required to support essential scientific 
investigation.
    Creation of a strategic national research and 
implementation plan constitutes a critical first step that must 
be followed by Federal investment that is sufficient to support 
the informational needs of this serious threat to social, 
economic, and ecological systems.
    Thank you for the opportunity to speak today.
    [The prepared statement of Dr. Klinger follows:]

 Prepared Statement of Terrie Klinger, Associate Professor, School of 
  Marine Affairs; Adjunct Associate Professor, School of Aquatic and 
              Fisheries Sciences, University of Washington

1. Statement of Problem
    Industrial and agricultural releases of carbon dioxide 
(CO<INF>2</INF>) to the atmosphere have accelerated over the past 250 
years, with the result that levels of CO<INF>2</INF> in the atmosphere 
now are higher than at any time in the past 650,000 years (Feely et 
al., 2008, and references therein). The oceans absorb about 30 million 
metric tons of this atmospheric CO<INF>2</INF> daily. Dissolution of 
atmospheric CO<INF>2</INF> in seawater causes the pH of seawater to 
decline (become more acidic) and reduces carbonate saturation levels. 
Temperate upwelling systems, high-latitude systems, and urbanized 
coastal areas all are likely to be substantially impacted by changes in 
pH and carbonate saturation within the next few decades. Concerted, 
sustained efforts must be made now to improve the state of the science 
and to incorporate science into decisions that will minimize risk to 
social, economic, and ecological systems.

2. State of the Science
    The biological and ecological impacts of declining pH and carbonate 
saturation (jointly referred to as ``ocean acidification'') in 
temperate and high-latitude ecosystems are poorly known but are 
predicted to affect biological processes and ecological interactions 
across multiple scales of time and space (e.g., Hutchins et al., 2007; 
Riebesell et al., 2007; Engel et al., 2005; Delille et al., 2005). 
Ecologically important species (e.g., keystone species, foundation 
species, ecosystem engineers) are likely to be negatively impacted, 
causing unforeseen and undesirable changes in marine ecosystems and in 
the provision of goods and services to humans. Commercially important 
species are among the species likely to be negatively impacted, 
influencing rates of harvest among wild and cultured species, 
ultimately reducing the availability of human food provided from the 
ocean.
    Biological responses to ocean acidification will vary by species. 
Although calcifying organisms (algae and animals with calcareous shells 
or skeletons) are considered to be particularly vulnerable to ocean 
acidification, non-calcifying organisms also will be affected. Negative 
impacts are likely to include reductions in growth, reproduction, 
survivorship, aerobic capacity, thermal tolerance, and disease 
resistance. Direct lethal impacts will cause mortality in some marine 
organisms. Other organisms will experience sub-lethal impacts that 
could have substantial negative ecosystem effects. For example, sub-
lethal responses that have been observed in recent experiments include 
but are not limited to:

  <bullet> Changes in size: sea urchins reared under high-
        CO<INF>2</INF> conditions were smaller than urchins reared in 
        normal sea water (G. Hofmann, UC Santa Barbara, unpublished 
        data)

  <bullet> Changes in morphology: calcified larvae of sand dollars 
        showed subtle changes in morphology when reared under high-
        CO<INF>2</INF> conditions. The observed morphological changes 
        impaired larval swimming behavior, suggesting that survivorship 
        and recruitment of larvae could be reduced (T. Clay and J. 
        Kershner, University of Washington, unpublished data)

  <bullet> Reduced thermal tolerance: calcified larvae of sea urchins 
        were able to build skeletons but were less tolerant of thermal 
        stress when reared under high-CO<INF>2</INF> conditions (G. 
        Hofmann, UC Santa Barbara, unpublished data)

  <bullet> Reduced growth rates: microscopic stages of two kelp species 
        exhibited slower growth when grown under high-CO<INF>2</INF> 
        conditions. Although preliminary, this result suggests that 
        kelps and other non-calcified algae could be negatively 
        impacted by ocean acidification (T. Klinger, unpublished data)

3. Ecosystem Impacts
    Ecosystem impacts of ocean acidification are difficult to predict 
given the current state of the science. Likely impacts include:

  <bullet> Changes in food web structure and function (e.g., changes in 
        the distribution and abundance of prey species and their 
        predators; increased vulnerability of prey species due to 
        slower growth and reduced calcification)

  <bullet> Changes in species assemblages. Species that respond 
        negatively to ocean acidification are likely to be replaced by 
        others that are less sensitive to changing ocean chemistry. New 
        assemblages are unlikely to provide the same goods and services 
        that we rely on now.

  <bullet> Changes in the distribution and abundance of biologically-
        formed (biogenic) habitat. Early evidence suggests that reef-
        forming organisms, especially those with calcified skeletons, 
        and canopy-forming kelps could be negatively impacted by ocean 
        acidification, with consequences for other organisms such as 
        fish that utilize or depend on such habitats.

4. Fisheries Impacts
    Impacts of ocean acidification on commercial and recreational 
fisheries are poorly known. Impacts are likely to be mediated through 
effects on growth and survivorship of larvae and juveniles and through 
prey availability for all life history stages. Likely impacts include:

  <bullet> Changes in the distribution and abundance of target species

  <bullet> Changes in the size and condition of harvested fish and 
        shellfish

5. Synergistic Effects
    The biological and ecological effects of ocean acidification are 
likely to be exacerbated by increasing ocean temperature, declining 
concentrations of dissolved oxygen, and other physical stressors such 
as ultraviolet radiation. Synergistic effects can lead to unpredictable 
ecological responses such as non-linear dynamics, thresholds, and 
tipping-points.

6. Biological Adaptation and Evolutionary Potential
    The potential for biological adaptation to ocean acidification is 
poorly known. Populations with diversity in genes that regulate 
response to pH and carbonate saturation are more likely to persist over 
time than are those with little genetic diversity. Because we do not 
yet know which species or populations exhibit such genetic diversity, 
it is essential to maintain evolutionary potential by conserving both 
species diversity and genetic diversity. The potential for biological 
adaptation will be constrained by loss of biological diversity and by 
the rapid rate at which environmental change is occurring.

7. Gaps in Knowledge
    Although there now exists compelling evidence that the pH of the 
ocean is changing due to absorption of anthropogenic CO<INF>2</INF>, 
our understanding of local and regional conditions and impacts is 
limited. Among the existing gaps are the following:

  <bullet> Status and trends in seawater chemistry (pH, carbonate 
        saturation, temperature, dissolved oxygen, and other water 
        properties) at spatial and temporal scales relevant to regional 
        research, management, and decision-making

  <bullet> Status and trends in local populations vulnerable to ocean 
        acidification and the combined effects of multiple stressors

  <bullet> Range of responses among key ecosystem elements and 
        commercially important species

  <bullet> Potential for biological adaptation; evolutionary potential

  <bullet> Non-linear dynamics, thresholds, and tipping-points in 
        ecological responses to ocean acidification and multiple 
        stressors

8. Research Needs
    The state of the science necessitates that new research be 
conducted. Only through direct experimentation will we be able to 
adequately parameterize models to forecast ecosystem change in the 
ocean and guide strategies to mitigate impacts on social, economic, and 
ecological systems. Effective research will require that investigations 
be conducted across multiple scales of organization, from genes to 
ecosystems, and at appropriate time scales. Satisfying these research 
needs will require that substantial new funds are made available to the 
research community. Research priorities include but are not limited to:

  <bullet> More intensive and extensive monitoring of seawater 
        chemistry and associated physical properties to detect physical 
        change as it occurs

  <bullet> Improved baseline biological data to detect ecological 
        change as it occurs, and to link ecological change to chemical 
        change

  <bullet> Establishment of chemical and biological time-series at 
        sentinel sites

  <bullet> Experimentation to characterize physiological responses and 
        differential gene expression under changing conditions and to 
        determine the potential for biological adaptation

  <bullet> Experimentation to determine the range of biological 
        responses among key ecosystem elements and species of 
        commercial importance

  <bullet> Experimentation to determine interactions between species, 
        including food web interactions, under conditions of ocean 
        acidification and multiple interactive stressors

  <bullet> Investigations to identify species that are: (1) 
        particularly vulnerable, (2) less vulnerable, or (3) capable of 
        rapid adaptation to the combined effects of acidification and 
        associated stressors. Such investigations could help guide 
        strategies to shift human uses of living marine resources to 
        species that are less vulnerable or more resistant to projected 
        changes in seawater chemistry.

    Seven national research priorities were identified by participants 
in a workshop sponsored by NSF, NOAA, and USGS in April 2005 (Kleypas 
et al., 2006). These priorities, paraphrased here from the original 
report, are as follows:

  <bullet> Determine the calcification response to elevated 
        CO<INF>2</INF> in benthic and planktonic calcifiers

  <bullet> Discriminate mechanisms of calcification and responses to 
        changing seawater chemistry across taxonomic groups

  <bullet> Determine the interactive effects of multiple variables that 
        affect calcification and dissolution in organisms

  <bullet> Establish clear links between laboratory experiments and the 
        natural environment, by combining laboratory experiments with 
        field studies

  <bullet> Characterize diurnal and seasonal cycles in the carbonate 
        system

  <bullet> Monitor in situ calcification and dissolution of calcifiers, 
        with better characterization of key controls on 
        biocalcification

  <bullet> Incorporate ecological questions into observations and 
        experiments, e.g., individual survivorship, population growth 
        rate, community structure, and ecosystem function.

    A subsequent workshop was convened at the Scripps Institution of 
Oceanography in October 2007 by the Ocean Carbon and Biogeochemistry 
Program with sponsorship from NSF, NOAA, NASA, and USGS. The purpose of 
the workshop was to further refine scoping for research investigations 
of ocean acidification. Important research themes were phrased as 
questions of importance (paraphrased here):

  <bullet> What are the temporal and spatial scales of change in the 
        carbon system of the global oceans and what are the impacts on 
        biological communities and ecosystems?

  <bullet> Will marine organisms adapt or evolve to tolerate elevated 
        CO<INF>2</INF> and temperature? If so, how?

  <bullet> How does elevated CO<INF>2</INF> influence calcification, 
        respiration, reproduction, settlement and recruitment, and 
        remineralization in marine organisms?

  <bullet> What are the effects of high CO<INF>2</INF> on processes 
        affecting ecosystem response and global feedbacks?

9. Implications for Marine Resource Managers
    Projected changes in seawater pH and carbonate saturation, combined 
with increasing temperature and declining levels of dissolved oxygen, 
will require the attention of marine resource managers. Effective 
management requires that processes integrating science into decision-
making be developed and implemented. Key management responses are 
likely to include:

  <bullet> More conservative limits on commercial and recreational 
        harvest to compensate for losses due to acidification and 
        associated stressors

  <bullet> Greater consideration of food web effects (e.g., 
        consideration of the abundance and distribution of prey 
        species) in setting harvest limits and establishing rebuilding 
        and recovery plans

  <bullet> Preservation of species diversity and genetic diversity to 
        provide functional redundancy and to enhance the capacity for 
        biological adaptation to changes in ocean chemistry

  <bullet> Protection and restoration of essential habitat features and 
        processes to compensate for habitat losses due to acidification 
        and associated stressors

  <bullet> Alleviation of other human-induced stressors (pollution, 
        eutrophication, shoreline development, habitat modification) to 
        the maximum extent possible to reduce the effects of multiple 
        interactive stressors and the likelihood of non-linear 
        dynamical responses

10. Conclusion
    Carbon emissions are causing changes in seawater chemistry that are 
unprecedented in the modern era. Ultimately, carbon emissions must be 
curbed. At the same time, serious and sustained efforts must be made 
now to reduce risks associated with changing ocean chemistry. Effective 
strategies will: (1) provide policy-relevant science regarding the 
effects of ocean acidification and associated stressors on marine 
organisms and the ecosystems they comprise; (2) implement policies that 
are reflective of this science and are sensitive to the rates and 
magnitudes of environmental change; and (3) adjust policies as new 
information becomes available. Substantial new funding directed to 
universities and Federal agencies is required to support essential 
scientific investigations. Creation of a strategic national research 
and implementation plan constitutes a first important step that must be 
followed by Federal investment that is sufficient to support the 
informational needs of this serious threat to social, economic, and 
ecological systems.

11. Biographical Sketch
    Terrie Klinger is Associate Professor of Marine Affairs and Adjunct 
Associate Professor in the School of Aquatic and Fisheries Sciences at 
the University of Washington and an active researcher at UW's Friday 
Harbor Laboratories. She obtained an A.B. in Biology from the 
University of California, Berkeley in 1979, a M.Sc. in Botany from the 
University of British Columbia in 1984 and a Ph.D. in Biological 
Oceanography from Scripps Institution of Oceanography in 1989. Her 
research focuses on ecological and policy issues in nearshore areas of 
the Pacific Northwest and Gulf of Alaska. She serves as Chair of the 
Olympic Coast National Marine Sanctuary Advisory Council, is the 
Governor's representative to the Northwest Straits Commission, and is a 
member of San Juan County's Climate Change Task Force.

12. Literature Cited
    Delille, B. and others (2005) response of primary production and 
calcification to changes of P<INF>CO2</INF> during experimental blooms 
of the coccolithophorid Emiliania huxleyi Glob. Biogeochemical Cycles 
19: GB2023.
    Feely, R.A., Sabine, C.L., Hernandez-Ayon, J.M., Ianson, D, Hales, 
B. (2008) Evidence for Upwelling of Corrosive ``Acidified'' Water onto 
the Continental Shelf. Science Express/Page 1/10.1126/science.1155676
    Engel, A.. and 17 others (2005) Testing the direct effect of 
CO<INF>2</INF> concentrations on a bloom of the coccolithophorid 
Emiliania huxleyi in mesocosm experiments. Limnology and Oceanography 
50: 493-507
    Hutchins, D.A. and 7 others (2007) CO<INF>2</INF> control of 
Trichodesmium N2 fixation, photosynthesis, growth rates and elemental 
ratios: Implications for past, present and future ocean 
biogeochemistry. Limnology and Oceanography 52: 1293-1304.
    J.A. Kleypas et al., (2006) Impacts of Increasing Ocean 
Acidification on Coral Reefs and Other Marine Calcifiers: A Guide for 
Future Research, report of a workshop held 18-20 April 2005, St. 
Petersburg, FL pp. 90
    Riebesell, U., and 10 others (2007) Enhanced biological carbon 
consumption in a high CO<INF>2</INF> ocean. Nature 450: 545-549.

    Senator Cantwell. Thank you, Dr. Klinger.
    Dr. Miles, thank you very much for being here as well. I 
know that you have played a long role in this area of research, 
and we greatly appreciate your position on these issues and 
your testimony today.
    And again, we are trying to get a microphone arranged there 
while you take a seat. If you can speak directly into the 
microphone, that will help us today. Thank you, Dr. Miles.

       STATEMENT OF EDWARD L. MILES, Ph.D., VIRGINIA AND

          PRENTICE BLOEDEL PROFESSOR OF MARINE STUDIES

         AND PUBLIC AFFAIRS, SCHOOL OF MARINE AFFAIRS,

                    UNIVERSITY OF WASHINGTON

    Dr. Miles. Thank you, Senator. Thank you for your 
leadership, and Congressman Inslee----
    Senator Cantwell. Move it directly--right in front of you. 
It is a little hard----
    Dr. Miles. All right. Is that better?
    Senator Cantwell. Yes, thank you.
    Dr. Miles. My name is Edward L. Miles, and I am the 
Virginia and Prentice Bloedel Professor of Marine Studies and 
Public Affairs in the School of Marine Affairs at the 
University of Washington. I also serve as Co-Director of the 
Center for Science in the Earth System of the Joint Institute 
for the Study of Oceans and Atmosphere, or JISAO, where I am 
the team leader of the Climate Impacts Group, the first of 
NOAA's Regional Integrated Sciences and Assessment, or RISA, 
teams. Our Climate Impacts Group was created on July 1, 1995.
    In my--in what I have to say in the short time available, I 
agree that the major lever of solution to the problems we face 
lies in fundamental changes to our energy systems and energy 
policy. But even if you were to bring that feat about tomorrow 
morning in Washington, D.C., we will have to try to manage the 
consequences of what we have created for several centuries. And 
that is the focus I want to take.
    I think we cannot afford to focus just on ocean 
acidification, as massive and as shocking as it is. I believe 
these problems are best dealt with by looking at them as a 
suite of multiple stressors so let me at least list them.
    The fact is that unprotected fossil fuel emissions since 
they were introduced have increased the concentration of 
CO<INF>2</INF> in the atmosphere by 100 parts per million, and 
this rate and magnitude is higher than any experienced on Earth 
for at least the last 650,000 years. As a result, as has 
already been mentioned, ocean pH has been reduced by about 10 
percent. But much more is implied in the future as a result of 
the total commitment of greenhouse gases to the atmosphere and 
the time scale of the exchanges between the ocean and the 
atmosphere.
    We also know, as has been pointed out, that ocean 
acidification impacts the health of calcareous life forms, and 
this will affect the web of life in the ocean, causing changes 
to be felt all the way up the food chain and also in the other 
relations.
    But we move on to other massive changes. Significant 
thermal increases in the surface and subsurface deep in the 
world's oceans, which will produce large-scale biogeographical 
shifts in the distribution of the most important species which 
are targeted by global commercial fisheries on which humans 
depend as a source of animal protein.
    There is also the significantly increased melt rates of 
polar ice shields in the summer as a result of the unexpected 
feedback between the subsurface heat increases and the 
subsurface ice, which produce the increased probability of 
intensified stratification in the water column. Stratification 
means a less biologically productive ocean.
    So this suite of five new problems, combined scientifically 
with two old problems which we haven't solved--that is, that 
those are the increased intensities of land-based pollution of 
the coastal region and the weakened condition of commercial 
fish populations, very significant levels of overfishing have 
occurred.
    So nobody alive is able to deal with this suite of seven 
stressors simultaneously. But a group of us in the community 
have decided to try to merge our capabilities to focus on at 
least two of the big ones, ocean acidification and changing 
ocean thermal structure.
    And together, with a colleague in the School of 
Oceanography, Professor Chris Sabine, and Dr. Richard Feely 
from NOAA PMEL, we have decided to put together a larger group, 
a panel launched on April 23 and 24, 2007, where we came to 
complete agreement on the research which encompasses both the 
natural science and the policy and management issues.
    The assets we are combining consist of NOAA PMEL, the 
Northwest Fishery Science Center, the Alaska Fishery Science 
Center, the School of Oceanography, School of Aquatic and 
Fishery Sciences, School of Marine Affairs at the University of 
Washington, the Center for the Study of Earth Science at the 
University of Washington, and Friday Harbor Labs, and the 
National Conservation Biology Institute.
    Our first step is to design a mesocosm, an experimental 
facility at Friday Harbor Lab, and to offer it as a national 
facility. And Dr. Klinger will design a workshop, which will be 
held this summer in late August, and that is supported by the 
Educational Foundation of America and the Dean of the College 
of Aquatic and Fishery Sciences and Government.
    We have begun a fund-raising effort for the construction of 
the mesocosm by doing the substantive research and for 
conducting a public education program. We cannot solve this set 
of problems by focusing only on the Northeast Pacific, and so 
we hope to relate our efforts to those in the North Atlantic, 
the Northwest Pacific, and elsewhere.
    As for global and national focus, we are also involved with 
the Heinz Center in Washington, D.C., and the Joint Global 
Change Research Institute at the University of Maryland.
    Thank you very much, Senator Cantwell.
    [The prepared statement of Dr. Miles follows:]

  Prepared Statement of Edward L. Miles, Ph.D., Virginia and Prentice 
   Bloedel Professor of Marine Studies and Public Affairs, School of 
                Marine Affairs, University of Washington

    My name is Edward L. Miles and I am the Virginia and Prentice 
Bloedel Professor of Marine Studies and Public Affairs in the School of 
Marine Affairs at the University of Washington. In addition, I hold a 
joint appointment in the Evans School of Public Affairs and an Adjunct 
Appointment in the School of Aquatic and Fisheries Sciences. I also 
serve as Co-Director of the Center for Science in the Earth System 
(CSES) of the Joint Institute for the Study of Oceans and Atmosphere 
(JISAO), where I am the team leader of the Climate Impacts Group (CIG), 
the first of NOAA's Regional Integrated Sciences Assessment (RISA) 
teams. The CIG was created on July 1, 1995.
    The Committee has asked me to address the following issues:

        1. Summarize the work of the Climate Impacts Group and explain 
        how this work enables an understanding of climate change and 
        its effects on Washington's marine and coastal ecosystems.

        2. Discuss the integrated approach that interest groups in 
        Washington have taken to understand and adapt to climate 
        change.

        3. Describe specifically how the University of Washington, the 
        Pacific Marine Environmental Lab, the state of Washington, and 
        local communities are working together to address climate 
        change issues.

        4. Discuss the implications of climate change for coastal and 
        ocean resource managers and the needs of managers to 
        effectively respond to the resulting impacts.

    Since it will not be possible to respond to all these questions 
orally in the time allotted to me, I shall respond in my written 
statement provided in the record and, for my oral presentation, I shall 
present the challenges which climate change poses to the region's 
oceans and coasts and focus on the new and very serious problem we now 
face in the world ocean as a whole. This is the problem of ocean 
acidification combined with a changing ocean thermal structure.

The Work of the CIG
    The CSES consists of the Climate Dynamics Group (CDG) and the CIG 
as a completely integrated ``one-stop-shop''. The CDG studies the 
physical climate system relevant to the Pacific Northwest and the CIG 
examines the impacts of climate variability and change on the Pacific 
Northwest, and produces climate information products and derived 
predictions (e.g., streamflow forecasts) for a large set of local 
stakeholders.
    Formed as a spin-off of Miles' experience in the Second Assessment 
of the Intergovernmental Panel on Climate Change (IPCC) in 1994-1995, 
the CIG focuses on developing climate impacts science as the study of 
how climate, natural resources, and human socio-economic systems affect 
each other. This requires the integration of physical and social 
science research, as well as the integration of stakeholders' 
perspectives (Federal, state, tribal, local, private sector, and 
NGO's).
    With core support from NOAA, we focus on four sectors: the regional 
hydrology/water resources management, forest ecosystems, aquatic 
ecosystems (primarily salmonids and the ecosystem structures and 
fisheries of Puget Sound and the Northern California Current System, 
including the coastal zones of Washington and Oregon). We study the 
dynamics of climate variability as a basis for making projections of 
likely scenarios of climate change.

The Emerging Integration of Interest Groups in Washington in 
        Understanding and Adapting to Climate Change
    How we got to where we are now can be described as a series of 
steps. It is an evolutionary unfolding rather than the result of a 
deliberate strategic plan.

        1. We began with an initial focus on understanding climate 
        variability in the PNW and impacts across the four sectors. We 
        shared the results of our investigations with stakeholders from 
        1995-1997 in general annual meetings of declining utility.

        2. 1997-1998 was a year of transition defined by two major 
        experiences. These were the First National Assessment of 
        climate change impacts on the U.S., conceived and implemented 
        in the Clinton Administration by then Vice President Al Gore, 
        and the most intense El Nino of the 20th century. The latter 
        event generated intense interest in climate which was sustained 
        by widespread media coverage. With combined additional 
        investment from NOAA and UW to expand the outreach capacity of 
        the CIG, we hired Dr. Philip Mote to be our 2nd climate 
        dynamicist, focused on the general circulation models (GCMs) of 
        IPCC and CIG specialist in charge of outreach. In addition, we 
        shifted to custom-made workshops for interest groups across the 
        four sectors. CIG emphasis was then equal between climate 
        variability and climate change; currently we place a heavier 
        emphasis on issues related to climate change. Between 2000 and 
        2005 we expanded our contacts with stakeholders and deepened 
        our connections to those who had joined us early.

        3. A new threshold was crossed as a result of increasingly 
        observed effects of climate change combined with exercise of 
        leadership by NE states, California, the Chief Executive of 
        King Co., the Mayor of Seattle, and the Tri-State Governor's 
        Initiative involving California, Oregon, and Washington by 
        2004. In 2005 we participated in a highly successful 
        collaboration between King Co. and the CIG in the form of a 
        workshop for >700 people in Quest Field covering eight sectors 
        of the PNW. Collaboration with King Co. continued in the design 
        and preparation of an adaptation Guidebook for Local 
        Governments and on joint research projects. Research results 
        began to support policy development at this stage.

        4. In 2007-2008 collaboration occurred between the CIG, the 
        Washington Legislature, and the Governor's Initiative on 
        Climate Change. Agreement converged on an eight-sector 
        assessment of likely climate change impacts (H.B. 1303 and 
        2860). This initiative is overseen jointly by the Division of 
        Community, Trade, and Economic Development (CTED) of the Office 
        of the Governor and Washington Dept. of Ecology. An 
        increasingly close and very effective collaboration between CIG 
        and Ecology has emerged across all areas.

Collaboration between UW, NOAA/PMEL, NMFS Northwest Fisheries Science 
        Center, NMFS Alaska Fisheries Science Center, and Local 
        Communities to Address Climate Change Issues
    The University of Washington has very great strengths in the earth 
sciences and particularly so on matters related to climate dynamics, 
climate impacts, and climate change. This expertise is distributed 
across the following units:

        1. The Program on Climate Change (PCC) combines as core units 
        the School of Oceanography, Dept. of Atmospheric Sciences, and 
        Dept. of Earth and Space Sciences. The principal foci are 
        research, education, and outreach. PCC also involves the 
        Quaternary Research Center, the Applied Physics Laboratory 
        (APL), JISAO, the CIG, and NOAA's Pacific Marine Environmental 
        Laboratory (PMEL). http://www.uwpcc.washington.edu/

        2. JISAO is a ``center of excellence'' fostering collaboration 
        between NOAA and UW on research themes which are allied with 
        NOAA's strategic plan. These include climate, environmental 
        chemistry, marine ecosystems, and coastal oceanography. http://
        jisao.washington.edu The CSES/CIG is also based in JISAO. 
        http://cses.washington.edu

    Examples of the ways in which these organizations combine and 
recombine to deal with problems of climate impacts would include 
collaboration between CSES and the NMFS Northwest Fisheries Science 
Center on the investigation of harmful algal blooms in Puget Sound; on 
improving rebuilding plans for overfished West Coast rockfish stocks 
through inclusion of climate information; on modeling studies to 
support conservation planning for Pacific Salmon; on developing 
quantitative tools for evaluating the effects of climate change on the 
population dynamics of Pacific salmon; and on predicting the responses 
of wild Pacific salmon to climate change.
    Another area of activity which was launched in April 2007, concerns 
the comprehensive investigation of the impacts of changing ocean 
thermal structure and increasing acidification in the Northeast Pacific 
Ocean. This effort integrates the efforts of CSES, UW School of 
Oceanography, School of Aquatic and Fishery Sciences (SAFS), School of 
Marine Affairs (SMA), and Friday Harbor Laboratories (FHL) with NOAA/
PMEL, the Northwest Fisheries Science Center, the Alaska Fisheries 
Science Center, and the Marine Conservation Biology Institute. The 
workshop established a priority for building a mesocosm at FHL as a 
national facility for the purpose of conducting experiments on the 
impacts of ocean acidification and agreed on a Steering Committee to 
move the programming forward. Since then the Steering Committee has 
secured a grant from the Educational Foundation of America combined 
with a contribution from Dean Arthur Nowell to hold a workshop to 
produce a detailed design for the mesocosm. The Steering Committee is 
currently engaged in developing a fundraising effort for constructing a 
mesocosm as well as for beginning a substantive research program, the 
first steps of which have been outlined. These investigations will be 
conducted in an ``end-to-end'' mode involving fundamental and applied 
science connected to identification and evaluation of alternative 
approaches to mitigation of and adaptation to the combined problem 
drivers of acidification and changing ocean thermal structure.
    Linked to, but going substantially beyond the acidification problem 
is an activity that combines the strengths of NOAA/PMEL with APL at UW 
and King County to determine a regional carbon budget for the Seattle 
area. A comprehensive plan is now being developed in the form of a 
White Paper. However, even before the plan is finished, NOAA/PMEL has 
collected carbon samples from a winter cruise conducted by the PRISM 
Program at UW. More samples will be collected this summer to get a 
first look at the carbon budget of Puget Sound. As a first step in the 
implementation of a continuous monitoring system, PMEL has emplaced a 
CO<INF>2</INF> mooring off Aberdeen, WA, for the purpose of measuring 
surface water and atmospheric CO<INF>2</INF>. This mooring has been 
operating for the last 2 years. These tentative steps are very 
important for a number of reasons. As local governments seek to reduce 
their emissions of CO<INF>2</INF> they will need to develop the 
capability to verify that policies enacted are reducing emissions as 
intended. This capability requires an in-depth understanding of sources 
and sinks of the gases which are targeted for reduction. That 
understand would be substantially enlarged by a monitoring system such 
as the one being designed in the collaboration between NOAA/PMEL, UW/
APL, and King Co.
    Of the eight sectors identified in the H.B. 1303 investigation, two 
involve ocean problems. These are Coasts, Estuaries, Harbors, Salmon 
and Marine Ecosystems. In the former category, the legislation requires 
CIG and its partners to estimate to what extent rising sea levels and 
ocean temperatures will impact the coasts, estuaries, and harbors of 
the State of Washington through inundation, increased flooding, and/or 
erosion. In the latter case, the legislation requires assessment of the 
extent to which climate change will alter the state's streams for 
salmonids, and where and under what conditions is salmonid habitat most 
vulnerable to direct (rising water temperatures) and indirect (habitat) 
effects of climate change.

The Implications of Climate Change for Ocean and Coastal Resource 
        Managers and the Needs of Managers to Respond Effectively to 
        the 
        Resulting Impacts
    Challenges Posed by Climate Change in the Pacific Northwest:

        1. Changing ocean thermal structure (increasing surface and 
        sub-surface heat) inducing large-scale biogeographic shifts of 
        ecosystems, including commercial fisheries.

        2. Increasing ocean acidification in both the North Pacific 
        Ocean and particularly in the coastal ocean off the West Coast 
        of North America with negative results for all species 
        requiring calcium carbonate for building their skeletons and 
        unknown effects for fisheries.

        3. Increasing stratification of the water column as a result of 
        changing ocean thermal structure, accentuated by increased 
        input of freshwater from melting glaciers.

        4. Expanding areal extent of oligotrophic gyres (i.e., waters 
        rich in dissolved oxygen, but lacking nutrients and plant 
        life).

        5. Salmon, and salmon restoration programs affected by multiple 
        stresses connecting both terrestrial and marine dimensions of 
        the life cycle from watersheds to the open ocean.

        6. Harmful algal blooms.

        7. Coastal hypoxia.

        8. Changes in the frequency and predictability of fisheries 
        recruitment events as a result of cascading changes in the 
        marine environment.

        9. Very complex, but largely unknown, changes in nearshore 
        structural algae (eelgrass, kelp) as habitat for a wide range 
        of coastal fish species.

        10. Changes in the magnitude and type of coastal hazards 
        generated by varying levels of sea level rise and the ways 
        these changes will impact coastal development and public 
        infrastructure.

    Managerial Needs:

        1. Increased information derived from expansions in monitoring 
        capacity in the open and coastal ocean and Puget Sound.

        2. Research and assessment tied to policy development.

        3. Systematic evaluation of potential alternative suites of 
        policy options to respond effectively to severe problems of 
        multiple stresses in a changing environment.

    In summary, over the past 13 years the CSES has engaged in a wide 
range of issue-driven scientific research and outreach related to the 
coasts and marine waters of the Pacific Northwest region. The region's 
needs for improved information and decision-support tools for managing 
marine resources is great, and threats posed by future climate change 
and ocean acidification will likely amplify existing decision-support 
needs in the very near future.

    Senator Cantwell. Well, thank you, Dr. Miles.
    Dr. Koenings, I want to thank you for being here, and we 
look forward to hearing your views. Thank you for representing 
the State of Washington.

       STATEMENT OF JEFFREY P. KOENINGS, Ph.D., DIRECTOR,

                DEPARTMENT OF FISH AND WILDLIFE,

                      STATE OF WASHINGTON

    Dr. Koenings. Thank you very much. Good morning, Senator 
Cantwell and Representative Inslee.
    I am Dr. Jeff Koenings, Director of the Washington 
Department of Fish and Wildlife. I also wear a variety of other 
hats as Chair of the National Pacific Salmon Commission and a 
Council Member of both the Pacific Fishery Management Council 
and the North Pacific Fishery Management Council.
    I appreciate this opportunity to speak to you on the impact 
of climate change on Washington State's marine ecosystems. For 
resource managers, I can sum up this topic with one word, and 
that word is ``uncertainty.''
    When we embark on a discussion of global climate change 
impacts, let us first acknowledge that we are heading into 
uncharted territory. Unlike other areas of natural resource 
science and management, we have no body of research to guide 
us, no historic models to foreshadow the shape of things to 
come, no proven formulas to follow.
    As a natural resource manager, I depend on science to guide 
my decisions, and in this arena, the science is just beginning 
to be developed. All this translates to the need for 
precautionary resource management. The climate change is, 
indeed, upon us all.
    What we do know is that climate change has the potential 
for enormous direct impact on delicate coastal ecosystems, as 
well as leaving them more vulnerable to secondary stressors. 
Changing ocean water temperatures, currents, stratification 
patterns, acidification can lead to other changes we are only 
beginning to contemplate.
    With so much unknown, we must gather intelligence from a 
growing number of the abnormal and even bizarre events that 
signal the natural and economic catastrophe climate change 
could bring. A growing oxygen-depleted dead zone has appeared 
in the ocean off our coast. Non-native species, such as the 
giant Pacific squid, make sudden appearances in our waters, and 
this year, entire salmon runs have collapsed in Oregon and 
California.
    We need no crystal ball to see the economic toll the salmon 
fishery collapse has taken on the West Coast. An unprecedented 
$60 million in Federal funds has been distributed since last 
summer to some 1,200 commercial fishermen in Oregon and 
California. The shadow cast on coastal communities, on 
operators of hotels, restaurants, charter boats, convenience 
stores, and supply shops is even wider.
    Here in Washington State, our severely constrained fishery 
is projected to eat away nearly $14 million from the sport 
fisheries, $15 million from the other salmon-related 
businesses, and another $7.2 million in direct losses to 
commercial fishers.
    This year, the Chinook salmon disaster offers a window on 
how the destruction of a single species, much less entire 
ecosystems, reverberates through our communities. It sounds 
like an extreme wake-up call for us all.
    I would like to briefly outline three ways marine areas 
could be particularly affected by climate change--first, 
through ocean dead zones; second, through non-native invasive 
species; and third, from the cumulative impacts to salmon and 
steelhead.
    Scientists have yet to determine how closely ocean dead 
zones are linked to climate change, but we do know the oceanic 
and atmospheric conditions that create these areas are 
consistent with climate change predictions. In recent years, 
these zones of oxygen-starved water off the coast of Washington 
and Oregon are persisting longer and becoming more severely 
with depleted oxygen. By last year, the coastal dead zone had 
spread from Washington coast to the California border.
    Even absent the great uncertainties of climate change, non-
native, potentially invasive species dispersed by ship ballast 
water are among the top threats to the world's marine 
ecosystems. With the emergence of modern shipping, the natural 
barriers have been broken down, allowing the introduction of 
alien species that upset the equilibrium of native ecosystems. 
Climate change could usher even more invasive animals and 
plants into our marine waters.
    I am pleased to report that Washington State enforces 
ballast water management requirements. Improper ballast water 
discharge in State waters is subject to civil penalties. And, 
yes, we have invoked those penalties a half dozen times over 
the past few years. The passage of Federal ballast water 
legislation with necessary standards will greatly help these 
efforts.
    Besides the general threat from ballast water, we are also 
aware of specific invaders that threaten wide-scale havoc in 
our marine ecosystem and our economy. Just two invasive 
species, the green crab and the Chinese mitten crab, could 
overrun our native Dungeness crab, thus disrupting the State's 
most lucrative coastal fishery.
    In no area of State fishery management are the potential 
effects of climate change more sobering than for salmon and 
steelhead. That is because these species move throughout our 
entire ecosystem to complete their life cycle, making them 
particularly vulnerable to flood events, competing water 
demands, and temperature changes, all expected to increase with 
the changing climate.
    Given the uncertainty of what lies ahead, the common 
denominator in all these concerns is the need for precautionary 
resource management. Faced with great unknowns, our best hope 
is to take the best possible care of the resources we still 
have.
    It is difficult to consider climate change impact without 
becoming overwhelmed. However, we can find some cause for 
optimism in an evolving spirit of cooperation as we face our 
shared burden, and you see some of that in front of you today.
    There are also very collaborative people behind me that are 
here attending this hearing. [Inaudible] All are involved in a 
collaborative effort to address ecosystem problems we have here 
in the State of Washington.
    But first, I would like to share one recent example of 
collaborative effort. Just days ago, the United States and 
Canada reached agreement on a new salmon harvest plan under the 
Pacific Salmon Treaty. Over the next 10 years, this ground-
breaking agreement will return a million more salmon to 
Northwest waters. This treaty offers a unique opportunity to 
pursue precautionary resource management on a far-reaching and 
long-lasting scale.
    The kind of large-scale commitment and cooperation 
exemplified in the Pacific Salmon Treaty among nations, among 
agencies, and among citizens must be the cornerstone for any 
concrete effort to tackle climate change. In this arena, the 
past is not served but is a prelude to the future. Instead, we 
are faced with unknown challenges of monumental proportions. We 
must move forward with only the tools that offer hope--our 
shared concern, our willingness to collaborate, and our 
combined commitment to conservation.
    Thank you, and I will be happy to answer any questions.
    [The prepared statement of Dr. Koenings follows:]

      Prepared Statement of Jeffrey P. Koenings, Ph.D., Director, 
          Department of Fish and Wildlife, State of Washington

    Good morning, Senator Cantwell and honorable Committee members. I'm 
Dr. Jeff Koenings, Director of the Washington State Department of Fish 
and Wildlife. I appreciate this opportunity to speak to you on the 
impacts of climate change on Washington State's marine ecosystem. I can 
sum up this topic with one word--uncertainty!
    When we embark on a discussion of global climate change impacts, 
let's first acknowledge that we are heading into uncharted territory. 
Unlike other areas of natural-resource science and management, we have 
no body of research to guide us, no historic models to foreshadow the 
shape of things to come, no proven formulas to follow.
    Given this uncertainty, Washington state has embarked on several 
collaborative efforts to assess and begin planning for the potential 
impacts of climate change. The University of Washington Climate Impacts 
Group, part of the National Oceanic and Atmospheric Administration's 
Regional Integrated Sciences and Assessment (RISA) network, the Western 
Governor's Association Climate Initiatives work group and the 
Washington State Climate Challenge all offer the kind of broad-based 
forums that will be required to respond to climate change.
    We do know that climate change has the potential for enormous 
direct impact on delicate coastal ecosystems, as well as leaving them 
more vulnerable to secondary stressors. Changing ocean water 
temperatures, currents, and stratification can lead to other changes we 
are only beginning to contemplate. As you know, impacts associated with 
climate change and climate variability are difficult to distinguish 
from other forces that stress the marine ecosystem.
    With so much unknown, we must gather intelligence from a growing 
number of abnormal, even bizarre, events that signal the natural and 
economic catastrophe climate change could bring to our waters. Since 
2002, a growing, oxygen-depleted ocean ``dead zone'' ocean has appeared 
and grown off our coast. Periodically non-native species such as the 
giant Pacific squid make sudden appearances in our waters. And this 
year, entire salmon runs have collapsed in Oregon and California.
    We need no crystal ball to see the economic toll the salmon fishery 
collapse has taken on the West Coast. An unprecedented $60 million in 
Federal funds has been distributed since last summer to some 1,200 
commercial fishermen in Oregon and California. The shadow cast on 
coastal communities--business lost to hotels, restaurants, charter 
operators, convenience stores and supply shops--is even wider. And even 
though we in Washington state are fortunate to have some fishing 
opportunity this year, our severely constrained fishery is projected to 
eat away nearly $14 million in revenues from sport fisheries, $15 
million in lost revenue to businesses that provide goods and services 
that support fisheries, and another $7.2 million in direct losses to 
commercial fishers.
    This year's chinook salmon disaster offers a window on how the 
disruption of a single species reverberates throughout our communities. 
It also sounds a wake-up call. Because as difficult as this year's 
events are for our West Coast neighbors, this state, with its miles of 
complex marine coastline--bays, estuaries, great coastal rivers and, of 
course, Puget Sound--is potentially even more vulnerable to climate 
change.
    I'd like to briefly outline three ways our marine areas are 
particularly vulnerable to climate change--first, through growing, 
oxygen-deprived ocean ``dead zones;'' second, from the appearance of 
non-native, invasive species; and third, from cumulative impacts to 
salmon and steelhead as they move throughout freshwater and marine 
ecosystems to complete their life cycle.
    Scientists have yet to determine how closely oxygen-deprived ocean 
dead zones are linked to climate change. But we do know the oceanic and 
atmospheric conditions that create these areas are consistent with 
climate change predictions. These zones of oxygen-starved water--
historically found only on the sea floor and the outer areas of the 
continental shelf--in 2002 began appearing much closer to the coasts of 
Oregon and Washington, persisting longer, and becoming more severely 
oxygen depleted. We also know that the longer they persist, the greater 
the impact on fish, crab and other marine life. By last year, the 
coastal dead zone that appeared only in 2002, had spread to extend from 
Washington to the California border.
    Even absent the great uncertainties of climate change, non-native, 
potentially invasive species dispersed by ship ballast water discharges 
are among the top threats to the world's marine ecosystems. For 
thousands of years, marine species could spread only by drifting on 
current or debris. With the emergence of the modern shipping and 
growing trade between nations, natural barriers have been broken down, 
allowing the introduction of alien species that upset the equilibrium 
of native ecosystems. A recent report by the Environmental Protection 
Agency calls on states to consider the effect of climate change on the 
already-challenging issue of aquatic invasive species, to identify 
ecosystem vulnerabilities, and to evaluate and improve controls.
    Although there is much to be done to meet this growing challenge, 
I'm pleased to report that Washington state has enforced ballast water 
management requirements on all vessels of three hundred gross tons or 
more, domestic or foreign. Vessel operators are required to ensure that 
ballast water is exchanged at sea or treated before it is discharged 
into state waters, and to report discharges. Improper ballast water 
discharges into state waters are subject to civil penalties. And yes, 
we have invoked those penalties a half-dozen times in the past several 
years.
    Besides the general threat from ballast water, we are also aware of 
specific invaders that threaten wide-scale havoc in our marine 
ecosystem and our state's economy. Just two invasive species--the green 
crab and the Chinese mitten crab--could overrun our native Dungeness 
crab, disrupting this state's most lucrative coastal fishery.
    In no area of state fishery management are the potential effects of 
climate change more sobering than for salmon and steelhead. That's 
because these iconic Northwest species move throughout our entire 
ecosystem--beginning life in inland spawning streams, migrating down 
major river systems, sheltering along estuaries and coastlines, finally 
heading out to sea and then repeating their journey homeward--to 
complete their life cycle. With such a wide range, they are 
particularly vulnerable to flood events, competing water demands and 
temperature changes--all expected to increase with a changing climate. 
Because salmon and steelhead rely on clean, cool water for survival, 
and require undisturbed streambeds to produce offspring, entire runs 
can be threatened by water flow disruptions. Those disruptions include 
flooding such as we've seen this past winter and the one before it, as 
well as warm season low flows that can strand young fish en route to 
the ocean, or block the return of adult salmon headed back to their 
native streams to spawn. This year's collapse of California's 
Sacramento River and Oregon's Klamath River salmon runs may offer the 
most detailed picture to date of the consequences of water-supply 
disruption.
    Given the uncertainty of what lies ahead, the common denominator in 
all these concerns is the need for precautionary resource management. 
Faced with great unknowns, our best hope is to take the best possible 
care of the resources we still have.
    It's difficult to consider climate change impacts without becoming 
overwhelmed. However, we can find some cause for optimism in an 
evolving spirit of cooperation as we face our shared burden. I'd like 
to share one recent example. Just days ago, the United States and 
Canada reached agreement on a new salmon-harvest plan, under the 
Pacific Salmon Treaty. Over the next 10 years, this groundbreaking 
agreement will return a million more salmon to Northwest waters. For 
example, the annual catch of chinook in southeast Alaska will be 
reduced by 15 percent. Off the west coast of Vancouver Island, British 
Columbia will lower its annual chinook harvest by 30 percent. Many of 
the salmon spared will return to Washington waters, furthering the 
recovery of fish populations listed for protection under the Federal 
Endangered Species Act.
    I can assure you that with this conservation-based agreement we are 
making a substantial down payment toward recovery of Washington's weak, 
wild, chinook salmon populations. This is a unique opportunity to 
pursue precautionary resource management on a far-reaching and long-
lasting scale.
    We can find other models of the kind of all-hands work needed to 
take on climate change issues. Right here in the Puget Sound region, a 
partnership established by Governor Gregoire is bringing governments on 
all levels together to restore the health of the Sound within a decade. 
On another front, my agency is working with scientists, tribes and 
legislators to completely retool our state's aging hatchery system--one 
of the world's largest--to support wild salmon recovery.
    The kind of large-scale commitment and cooperation exemplified in 
the Pacific Salmon Treaty--among nations, among agencies, among 
citizens--must be the cornerstone of any concrete effort to tackle the 
sweeping challenge of climate change. Unlike so many other concerns of 
government where the past is prelude to the future, in this arena we 
are faced with unknown challenges of monumental proportions. We go 
forward with the only tools that offer hope--our shared concern, our 
willingness to collaborate, and our combined commitment to 
conservation.
    Thank you. If there are any questions, I'll be happy to try to 
provide you with a concise answer.

    Senator Cantwell. Thank you, Dr. Koenings.
    Now I think Mr. Bishop maybe will elaborate a little bit 
more on how those invasive species are impacting a very vital 
industry in Washington State, obviously in the shellfish 
industry. Thank you for being here.

 STATEMENT OF BRETT BISHOP, CO-OWNER, LITTLE SKOOKUM SHELLFISH 
   GROWERS; ON BEHALF OF THE PACIFIC COAST SHELLFISH GROWERS 
                          ASSOCIATION

    Mr. Bishop. You are welcome. Good morning. I am honored and 
surprised to be here. I am a clam digger and oyster picker. My 
name is Brett Bishop, and today I am representing commercial 
shellfish growers from Alaska to California to Hawaii.
    Washington State produces 85 percent of the shellfish grown 
on the West Coast, and we in Washington State are now the 
largest producer of farmed shellfish in the United States.
    My family's farm is on Little Skookum Bay. We are a 
traditional family farm, with tides. Mom and dad live next 
door. Mom is 91. Dad is 93. They still take care of themselves, 
but I do the driving now. My two teenage boys are the sixth 
generation in our family to live on the homestead and grow 
clams and oysters in Skookum Bay. We would like to keep that 
going.
    We are typical of other shellfish farmers, and we are all 
facing problems that appear to be related to a warming climate 
and greenhouse gases. We have a current crisis in several of 
the larger shellfish hatcheries. It is a new bacterium called 
Vibrio tubiashii, and it interferes with the reproduction of 
oysters and clams when they are in the larval stage, less than 
1 millimeter.
    In the hatcheries, it is devastating. The largest hatchery 
we have is in Whiskey Creek, Oregon, in Netarts Bay, and this 
year, they shut their doors and laid off employees. What they 
have been doing is retooling their facility. They have added 
ultraviolet filtration and protein skimmers, and they have 
shown some early success. But in the marine environment, 
particularly in the coastal bays such as Willapa and Grays 
Harbor--well, in Willapa Bay, they are in year three of little 
or no natural oyster setting. So they now have to rely on 
hatcheries, and the hatcheries have this problem. They are in 
dire straits.
    Even if we fix the problem in the hatcheries, it still 
leaves unresolved the ability of oysters to reproduce in the 
wild. We need to be clear about this. The current situation 
puts not just the shellfish grower, but the entire marine 
ecosystem in extreme jeopardy. I am scared.
    A problem of even greater magnitude is this acidification 
of seawater that we have heard about. I heard about it last 
week, and I haven't forgotten about it for a moment since. This 
acidity dissolves calcium carbonate, which is the thing the 
shells are made out of. And if diatoms, corals, or clams and 
oysters succumb to this, it not only wipes out the shellfish 
industry, but potentially the entire marine food chain.
    I know that is a dark and gloomy picture we have been 
painting for you today. So, as a counterpoint to that, let me 
tell you something else. Shellfish growers are perhaps the only 
category of humans that might actually benefit from climate 
change. Here is how it might work.
    Instead of having to mow my front lawn once a week, as sea 
levels rise because of melting ice caps, I might be able to 
grow clams and oysters in the front lawn. Of course, we have to 
survive as a business to reap the benefit from that future 
date. I am not so sure we are going to.
    Shellfish perform vital ecosystem functions as they filter-
feed. Just about every human activity that takes place on the 
uplands contributes nutrients to the marine environment, and 
when the shellfish is harvested, it represents one of the very 
few human activities that actually withdraw nutrients from the 
marine environment. So all the oceans need filter-feeding 
shellfish, whether it is my family growing them or not.
    From the perspective of the Bishop family, it looks like 
this. We have invested everything that we have and everything 
that we are on our farm. We have a mortgage with Farm Credit 
Services. We employ 27 people year round, gross sales of about 
$2.8 million a year. If we can't grow our shellfish, the bank 
will foreclose on the mortgage, we will lose our farm, our 
homes, and six generations of hopes and dreams and investment, 
which is just about everything that we hold dear.
    We do not intend to be passive witnesses to our own demise. 
Growers have thoughts. With electricity, we have boats and 
people out on the beach at every low tide. We are ready to 
supply physical locations, telemetry, and field work at no cost 
to researchers, who are helping us figure out our common 
problems. If science can supply the intelligence, we will help 
with the means. Please use us.
    Thank you for your attention.
    [The prepared statement of Mr. Bishop follows:]

Prepared Statement of Brett Bishop, Co-Owner, Little Skookum Shellfish 
 Growers; on Behalf of the Pacific Coast Shellfish Growers Association

    My name is Brett Bishop and today I am representing commercial 
shellfish growers on the Pacific Coast from Alaska to California. For 
the record, 85 percent of all shellfish produced on the West Coast are 
grown in Washington, where we've farmed shellfish for 150 years. We're 
actually the largest producer of farmed shellfish in the entire United 
States.
    My family's farm is on Little Skookum Bay in Mason County. We are a 
traditional family farm, with tides. My parents live next door, Mom is 
91 and Dad is 93. My two teenage boys are the sixth generation to live 
on the old homestead and grow clams and oysters in Little Skookum Bay.
    We are typical of most other shellfish growers, and we are all 
facing unprecedented problems that appear to be linked to warming 
oceans and low oxygen conditions. The `dead zone,' identified in 2002 
off the coast of Oregon, has now been observed by researchers all the 
way up into Canada. We've been able to correlate the dead zone and 
upwelling events with the presence of a marine bacteria, Vibrio 
tubiashii, in many of our growing areas and hatcheries. Vibrio 
tubiashii thrives in low oxygen (hypoxic) and no oxygen (anoxic) 
conditions.
    In the wild, it kills oyster larva and seed up to at least 1 mm. 
which has interrupted the natural cycle of propagation, resulting in 
little or no ``natural set'' in the bays and estuaries where we make 
our living. While many growers in Puget Sound, Oregon and California 
depend primarily on hatchery-produced seed, many growers in Willapa 
Bay, which produces almost 60 percent of Washington State's oysters, 
continue to depend on natural set seed. Growers there are reporting 
that they are now experiencing their third year with virtually no seed 
set. This forces them to rely on hatchery production of juvenile 
shellfish to assure adequate crops, but Vibrio tubiashii has infected 
most of our West Coast hatcheries. Our largest producer of larvae, 
Whiskey Creek Hatchery, has in fact had to close their doors 
temporarily, and lay off staff, while they retrofit their operation 
with a series of filtration systems in an attempt to keep the Vibrio 
tubiashii out of the water they are pumping into their facility from 
Netarts Bay in Oregon. Growers have been donating funds to Whiskey 
Creek, to aid them in their research into solutions for hatcheries. If 
a way is found to rid the hatcheries of Vibrio tubiashii, and a system 
can be engineered that allows us to grow seed up to at least 1 mm in 
size, we may be able to save our shellfish farmers.
    Left unresolved is the ability of oysters to reproduce in the wild.
    I need to be clear about this; the current situation puts both the 
marine eco-system and shellfish growers in extreme jeopardy. Diminished 
natural reproduction coupled with failing hatcheries puts us in a 
position where we stand to lose it all.
    A problem of even greater magnitude is the acidification of 
seawater. A NOAA researcher, Richard Feely, reports finding levels of 
acidity along the Pacific Coast of North America that were not 
predicted until 50 to 100 years from now. This acidity dissolves 
calcium carbonate, the stuff that shells are made of. If diatoms, 
corals and shellfish succumb to this, it might collapse not only the 
shellfish industry, but the entire marine food chain. Life as we have 
known it might soon change.
    It is a dark and gloomy picture that I just painted. In 
counterpoint to that, let me tell you something else; shellfish growers 
might be the only category of people who stand to benefit from the 
effects of climate change. As polar ice melts and sea levels rise, our 
front yards and lawns may become suitable places for growing clams and 
oysters.
    Of course, our businesses would have to survive financially to reap 
any benefits from that future day. This is why we need to solve the 
problem in the hatcheries now, and address the acidification of the 
oceans.
    Our shellfish crops perform vital eco-system functions as they 
filter-feed. Just about every human activity that occurs on the uplands 
contributes nutrients to the marine environment. When a clam or oyster 
is harvested, it becomes one of the very few human activities that 
result in a withdrawal of nutrients from the water. Clean and healthy 
oceans need filter feeding shellfish, whether it's my family that's 
growing them or not.
    From the perspective of the Bishop family it looks like this: we 
have invested everything we have and everything that we are in our 
farm. We have been growing as we could afford to for the last one 
hundred and twenty four years. We have a mortgage with Farm Credit 
Services. We employ 27 people year-round with gross sales of $2.8 
million.
    If we can't grow our shellfish, the bank will foreclose on the 
mortgage, we will lose the farm, our homes, and six generations of our 
hopes and dreams and investments. That is most of everything that we 
hold dear.
    This is what I am reporting to you folks today.
    I thank you for your attention.

    Senator Cantwell. Thank you, Mr. Bishop, and thank you for 
being here. Very much appreciate your testimony.
    Mr. Ranker, welcome to the Committee hearing. Thank you for 
being here.

            STATEMENT OF HON. KEVIN RANKER, MEMBER, 
          SAN JUAN COUNTY COUNCIL, STATE OF WASHINGTON

    Mr. Ranker. Thank you. Thank you, Senator Cantwell and 
Congressman Inslee, for your incredible leadership with regard 
to coastal issues, policy, and restoration and conservation for 
your tenures in Washington, D.C.
    For the record, I am Kevin Ranker. I am a member of the San 
Juan County Council. I am also the chair of the Coastal 
Counties Caucus, which represents the 14 coastal counties in 
Washington State. I also co-chair the Salmon Recovery Council 
for the Puget Sound, and I am a program officer for the Ocean 
Foundation. And last, I serve on the Ecosystem Coordination 
Board for the Puget Sound Partnership.
    I want to touch on some of the ecosystem impacts, simply to 
bring it down to a local level in my testimony today, so I will 
summarize my written comments that you have already received.
    The effects of climate change are dramatic for a Pacific 
Rim state, such as Washington State, and particularly dramatic 
for the coastal communities along our 2,300 miles of coastline.
    I want to quote from the University of Washington Climate 
Impacts Group paper, ``Uncertain Future: Climate Change and the 
Effects on Puget Sound.'' They wrote, ``Changes caused by 
global warming are likely to reverberate across the Puget Sound 
ecosystem in complex and unpredictable ways, disrupting crucial 
interactions between plant, animal, and human communities.'' We 
are talking about an ecosystem problem here.
    Some of the specific impacts that we will see in the future 
and that we are already seeing, we have heard about some 
regarding acidification and other issues. We are also seeing 
significant impacts to the snow-fed water supplies for 
Washington State, which will have a dramatic impact on our 
rivers, streams, lakes, and drinking water for millions of 
Washington citizens.
    We have heard about sea level rise. We will continue to see 
sea level rise impacts. And as a coastal-elected official, 
those impacts are very significant. When the sea level rises, 
we talk about millions of dollars in infrastructure upgrades, 
millions of dollars in impacts to coastal development, to say 
nothing of the changing planning and allotting for our 
communities.
    We will see increased and are seeing increases in air 
temperature and water temperature. We have heard about the 
impacts on salmon. This will also dramatically impact our other 
commercial and recreational fisheries.
    We are also already seeing stronger and more frequent 
winter storms in the Northwest. I was elected to the San Juan 
County Board of County Commissioners in 2004. When I was 
elected, we had not declared a state of emergency in San Juan 
County in several decades. In 2006 and 2007, we had three major 
storms and had to declare emergency situations in San Juan 
County in a 2-year period. We had no power. We had snow and no 
water for our elderly out in the rural areas for several days.
    These sorts of trends, and what we are reading in the 
research and data that have been compiled, will continue.
    We have also seen increased and will continue to see 
increased flooding in Washington State in our watersheds. 
Recent flooding in southwest Washington, and particularly the 
Skagit, has cost human lives. It cost thousands in dead cattle 
and other livestock, millions of dollars in damage, and 
significant long-term community impacts.
    There are also, as we have heard, significant economic 
impacts associated with these changes, with the shellfish 
industry, with commercial and recreational fishing, with 
coastal development and infrastructure. And also something that 
we don't always think about with regard to climate change is 
the direct relationship between a healthy and beautiful natural 
environment in Washington State and our tourism economy.
    Tourism in 2006 raised $13.9 billion--that is billion with 
a B--dollars for our state economy and employed 146,000 people. 
In San Juan County, in my district, $121 million and employed 
1,700 people. This is a very important piece of our economy 
that will also be dramatically impacted.
    And I raise that just to point out kind of the--I don't 
necessarily want to go crazy here--but the trickle-down effect 
of this situation throughout our economy and throughout our 
environment.
    Here in Washington State, under the leadership of Governor 
Gregoire, we have made some local and state-based changes that 
are very significant and need to be pointed out today. One is 
with regard to emissions reduction. By 2020, having cars down 
to 1990 standards, green car initiative standards by 2009, 
energy efficiency standards for appliances, and green building 
standards are all things that have been advocated by our 
Governor.
    The larger issue, however, as Dr. Miles stated, is that we 
have an ecosystem problem. For an ecosystem problem, we must 
have ecosystem solutions.
    I want to spent the last few minutes of my comments today 
talking about ecosystem-based management and why it is so very 
important to start looking in that direction when we face 
climate change issues.
    There are several examples of this here in Washington 
State. One is the recently established--and Congressman Inslee 
is very involved in this--the Puget Sound Partnership. The 
Puget Sound Partnership is taking a look at ecosystems from the 
snowcaps to the whitecaps. And when we have an ecosystem 
problem, such as climate change, we must begin to manage our 
resources and our human activities in an ecosystem perspective.
    The Puget Sound Partnership has six ecosystem goals--human 
health, human quality of life, species biodiversity and the 
food web, habitat and land use, water quality, and water 
quantity. These are critical issues. We cannot continue to 
manage our resources on a habitat by habitat, species by 
species, or in my case, as a locally elected official, 
individual lot by individual lot perspective. We must take an 
ecosystem focus.
    In San Juan County, we launched the San Juan Initiative. We 
brought together the heads of all of our state resource 
agencies--thank you, Dr. Koenings, for participating--the heads 
of all of our Federal agencies for the region, and tribal and 
local leaders to begin addressing how we can actually do this 
on a local level.
    The recommendations of the San Juan Initiative will be 
completed this year. Those recommendations will go to our state 
and Federal and tribal partners with regard to specifically how 
we can begin to look at climate change and other ecosystem 
problems facing us.
    On a Federal level, something else that is very important 
to pay attention to when it comes to these issues is the 
Federal Joint Ocean Commission Initiative. That body is 
providing coordination for state efforts, such as the Puget 
Sound Partnership, local efforts such as the San Juan 
Initiative. On a national perspective, we must have a 
coordinated approach to these issues so that we can generate 
these wonderful successes on a local level that can be 
replicated on a national or statewide perspective.
    Specific recommendations, in my conclusion here, we are 
aware that the Federal Government has some recommendations on 
what needs to be happening. First of all, continued support for 
NOAA, academic institutions such as the University of 
Washington, nongovernmental organizations, which provide 
research and modeling, is critical to addressing these issues--
critical for myself as a locally elected official, critical for 
State managers and Federal managers. Without that data, we 
cannot plan appropriately.
    We also must formally recognize and support local efforts, 
such as the San Juan Initiative, State-based efforts such as 
the Puget Sound Partnership, and regional and national efforts 
of coordination such as the Joint Ocean Commission Initiative.
    And last, we need your colleagues to step up the way you 
have and be true champions with regard to these issues. What we 
sorely need is a renewal of the kind of leadership commitment, 
and innovation at the Federal level that in the past defined 
the United States as a leading force in the protection of our 
environment and our planet. I hope that as we move forward, we 
can work together to regain that position.
    And the last comment I will make is, Congressman Inslee, 
you mentioned the next generation. I have a 5-week-old 
daughter. I have thoroughly enjoyed my times on the Puget Sound 
and my memories playing with my father and my grandfather on 
the beaches and on Orcas Island. And it is not a choice, but an 
absolute mandate, that we must take these actions now for my 
daughter and my daughter's generation.
    Thank you.
    [The prepared statement of Mr. Ranker follows:]

           Prepared Statement of Hon. Kevin Ranker, Member, 
              San Juan County Council, State of Washington

Introduction
    Thank you, Chairman Inouye and Senators, for the opportunity to 
testify today. Welcome to Washington State. I am so glad to see that 
Chairman Inouye continues his legacy of supporting Washington State as 
he did in the Magnusson/Jackson era now during the Murray/Cantwell era. 
Senator, we have something in common we both live on islands and 
therefore our constituents could be the most affected by sea level rise 
and climate change.
    For the record, I'm Kevin Ranker. I'm a San Juan County Council 
Member (and Chair of the Puget Sound Salmon Recovery Council, the 
Washington Coastal Counties Caucus, Pacific Region Program Officer of 
the Ocean Foundation and a member of the Ecosystem Coordination Board 
of the Puget Sound Partnership, which is taking an ecosystem-based 
approach to restoring and protecting our jewel, Puget Sound, by the 
year 2020).
    The 2007 report from the Intergovernmental Panel on Climate Change 
(IPCC) says it best:

        ``Warming of the climate system is unequivocal, as is now 
        evident from observations in global average air and ocean 
        temperatures, widespread melting of snow and ice, and rising 
        global average sea level.''

    Based on 20 years of research and thousands of published, peer-
reviewed reports, the IPCC concluded that it is more than 90 percent 
likely that the accelerated warming of the past 50 to 60 years is due 
to human contributions.
    Scientists also tell us that Washington State is particularly 
vulnerable to the impacts of climate change.
    As a Pacific Rim state, sea level rise associated with temperature 
rise is a concern--especially for all of the communities along our 
2,300 miles of shoreline.

  <bullet> A study released in January concludes that sea levels in 
        Puget Sound are likely to rise a half a foot by mid-century. 
        The study (Sea Level Rise in the Coastal Waters of Washington 
        State, 2008), conducted by the University of Washington's 
        Climate Impacts Group and the state Department of Ecology, 
        factored in global warming as well as local weather patterns 
        and geology.

  <bullet> Under its worst-case scenario, regarded as unlikely, but 
        still a possibility, sea levels in Puget Sound could rise more 
        than 4 feet by 2100.

    Also making Washington especially vulnerable to climate change are 
our snow-fed water supplies. Snowmelt feeds rivers and streams, 
providing essential support to all kinds of ecosystems, salmon and 
other wildlife as well as critical aquifer recharge for drinking water 
for millions of Washington citizens.
    The impact of these changes will also be widespread and devastating 
to numerous sectors of our economy. While obvious economic impacts due 
to climate change have been raised, such as the loss of coastal 
development, rebuilding of infrastructure or impacts to commercial 
fisheries, impacts associated with the relationship between a healthy 
environment and a healthy economy are less frequently discussed. 
Tourism for example, depends a great deal on a healthy Puget Sound and 
surrounding natural environment. In 2006 Washington State tourism 
revenue was $13.9 billion and created 146,500 jobs. In San Juan County 
during the same year tourism revenue topped $121.1 million and created 
1,780 jobs. The economic impact of losing key ecosystem services will 
be severe and widespread throughout our statewide economy.

Impacts of Climate Change on Puget Sound
    Another study (Uncertain Future: Climate Change and Its Effects on 
Puget Sound, 2005) by the University of Washington's Climate Impacts 
Group concludes that ``profound changes have occurred in the Puget 
Sound over the past century and the next several decades will see even 
more change.''
    ``Changes caused by a warming climate are likely to reverberate 
across the Puget Sound ecosystem in complex and unpredictable ways, 
disrupting crucial interactions between Puget Sound plants and 
animals--and their environment.''
    Projected changes include:

  <bullet> Continued increases in air and water temperature. Air and 
        water temperatures have risen more here than in other parts of 
        the world.

    <ctr-circle> Increased air temperatures have reduced spring 
            snowpack, produced earlier spring snowmelt, increased 
            winter flow and decreased summer flow--which can lead to 
            altered habitat for fish and other species.

                  <bullet> And even the lowest estimated warming could 
                change the Northwest's climate significantly more than 
                the warming of the 20th century.

    <ctr-circle> Warmer water temperature has the potential to put many 
            species at risk, including plankton, the foundation of 
            Puget Sound's food web.

  <bullet> Continued alteration of river and stream flows. With 
        decreased snowpack and earlier snowmelt, Western Washington's 
        low summer stream flows are likely to be further reduced, while 
        winter stream flows rise, altering the timing of freshwater 
        inputs to marine waters.

  <bullet> Increased flooding in Puget Sound watersheds. Recent 
        flooding has cost human lives, hundreds of cattle and other 
        farm animals, and millions of dollars in property damage, to 
        say nothing of the years of recovery for the local communities 
        that were impacted. Projections show that this trend will 
        continue.

  <bullet> Accelerated rates of sea level rise are likely to increase 
        both the pace and extent of erosion and nearshore habitat loss 
        already affecting Puget Sound shorelines. The slightest changes 
        in average sea level can dramatically impact the existing 
        fragile nearshore ecosystems of the Puget Sound. Further, as 
        the Puget Sound rises, the impact on coastal development 
        increases. This trend leads to increased coastal armoring which 
        devastates nearshore habitats. The nearshore ecosystems of the 
        Puget Sound provide critical habitat for numerous species 
        currently listed under the Endangered Species Act.

  <bullet> Salt marshes at risk. Projected changes in water 
        temperature, water salinity and soil salinity could change the 
        mix of plant species in salt marshes and the viability of 
        invertebrates that play a key role in the health of salt marsh 
        systems.

  <bullet> Increased likelihood of algal blooms and low oxygen 
        concentrations in bottom waters. Increased algal productivity 
        would lead to a further depletion of oxygen at depth.

    <ctr-circle> Puget Sound is one of the largest shellfish-producing 
            regions in the United States; and Puget Sound shellfish are 
            vulnerable to contamination by the toxics produced by 
            harmful algal blooms.

Effects of Climate Change on Salmon
    Salmon are fundamental to Pacific Northwest ecology, culture and 
economy.
    Unfortunately, in most river basins, wild populations are severely 
depleted. Several stocks have been listed or are being considered for 
listing under the Endangered Species Act.
    Salmon depend on both freshwater and marine habitats. They need:

  <bullet> Clean, cold water; well-connected rivers; and reliable 
        stream flows for spawning, rearing and migration;

  <bullet> healthy estuaries where juveniles can adjust to ocean 
        conditions, and adults can rest before spawning upstream; and

  <bullet> productive ocean conditions, with abundant food sources and 
        optimal temperature regimes.

    And climate change is taking its toll on salmon, too.

  <bullet> More rain and less snow have led to a major change in 
        hydrograph: higher high flows, lower low flows. This both 
        increases the vulnerability of their eggs to flood wipe out and 
        decreases the rearing capacity of rivers to support juvenile 
        salmon.

  <bullet> Because less snowpack feeds the rivers, water temperatures 
        are warmer in the summer, which lowers the survival of rearing 
        juvenile salmon.

  <bullet> Warmer summer temperatures increase the mortality of holding 
        adult salmon (particularly spring and summer Chinook and summer 
        steelhead--as they enter rivers many months before spawning).

  <bullet> Warmer summer temperatures increase the prevalence of 
        certain parasites, which increases in-river mortality of return 
        adults. (This has been a problem with Fraser River sockeye in 
        recent years and has been noted in Puget Sound rivers, like the 
        Stillaguamish.)

  <bullet> Modeling suggests that global climate change will modify 
        circulation patterns resulting in microclimate changes. For 
        example, more rainfall is likely to occur in lower valleys 
        making less precipitation available for upper watersheds. This 
        will exacerbate the effects on lower summer flows and higher 
        temperatures, further reducing the capacity of rivers for 
        species such as steelhead and spring Chinook, which depend on 
        upper watershed rearing.

  <bullet> Sea level rise will completely modify lower main stem, 
        estuarine and nearshore rearing habitats, which have been 
        identified as key habitats for some species/stocks (e.g., 
        Skagit and Snohomish Chinook salmon). This means that habitat 
        restoration and protection actions will likely be less 
        effective than modeled.

  <bullet> Climate change is associated with broad changes in ocean 
        circulation patterns. The tendency is likely more toward the El 
        Nino-like years, meaning less upwelling, less productivity and 
        poorer salmon survival in the ocean.

  <bullet> As noted earlier, higher average ocean temperatures will 
        alter the marine food web and reduce survivability of salmon.

What Washington Is Doing to Adapt to Climate Change
    Thanks in large part to the leadership of Gov. Chris Gregoire and 
the state legislature, Washington is taking bold steps to address 
climate change.
    In Washington, nearly 50 percent of our greenhouse gas emissions 
come from cars, trucks, planes and ships. With this in mind:

  <bullet> Emission reduction. In 2007, emission-reduction goals were 
        established. In 2008, the goals were replaced by statewide 
        emission limits:

    <ctr-circle> To return to 1990 emission levels by 2020.

    <ctr-circle> To reduce emissions to 50 percent below 1990 levels by 
            2050.

  <bullet> Emissions disclosure. To assist consumers in making informed 
        decisions about greenhouse gas emissions when buying a vehicle, 
        starting in 2010, disclosure labels will be placed on new 
        passenger vehicles.

  <bullet> Clean cars. Beginning with model year 2009, new cars sold in 
        Washington must meet the clean car standards adopted by 
        California and 16 other states, which will help significantly 
        reduce air quality pollutants.

    Energy efficiency avoids the need to increase power generation, 
which can avoid increases in greenhouse gas emissions. Along those 
lines:

  <bullet> Energy efficiency standards. Washington has adopted strong 
        energy efficiency standards for new appliance products.

  <bullet> Green building standards. Washington became the first state 
        in the Nation to require that state buildings be built to LEED 
        silver certification.

Ecosystem-Based Management in Washington
    Puget Sound Partnership: Another testament to the Governor's 
leadership and concern for the environment came last year, when she and 
the legislature created the Puget Sound Partnership to restore and 
protect Puget Sound.
    Puget Sound's beauty belies its problems:

  <bullet> Puget Sound orcas are the most contaminated marine mammals 
        in the world.

  <bullet> Shellfish beds are closed because their harvests are unsafe 
        to eat.

  <bullet> Beaches are closed because they are unsafe for swimming.

  <bullet> The list of Puget Sound species that are threatened or 
        endangered is long and, without action, likely to grow.

    And a projected population growth of some 1.5 million people by 
2020, which will put more stress on the Sound, only increases the 
urgency to act now.
    The Puget Sound Partnership, which I have the pleasure to be 
involved with, is different from previous cleanup efforts in many 
respects.

  <bullet> Its work is based on science.

  <bullet> It will hold entities charged with the tasks accountable for 
        results.

  <bullet> And, it is charged with looking at the entire ecosystem--
        from the snowcaps to the whitecaps.

    In developing its Action Agenda for a restored Sound by 2020, the 
Partnership is considering 6 ecosystem goals:

  <bullet> human health;

  <bullet> human quality of life;

  <bullet> species, biodiversity and food web;

  <bullet> habitat and land use;

  <bullet> water quality; and

  <bullet> water quantity.

    This ecosystem-based approach will be essential to turning around 
the fate of the Sound--a task only made more difficult by climate 
change.
    San Juan Initiative: In San Juan County, we have a local effort 
that will recommend changes to how local government and state and 
Federal agencies protect the remaining high quality habitat of the 
Islands and by extension, all of Puget Sound. The San Juan Initiative's 
assessment of protection effectiveness will mostly demonstrate that 
parcel-by-parcel protection has not worked to protect what we care 
about. The Assessment points out that the way forward is through 
ecosystem or reach level management that engages the community in 
finding ways to manage collective resources together, insuring that the 
values of the community are expressed in protection efforts.
    The San Juan Initiative will be completed this year and will point 
out where our combined local, state and Federal efforts are working to 
protect the environment, address climate change impacts and where they 
need to be strengthened to fill the gaps. The process will engage 
citizens and governments so that the recommendations are ground-truthed 
and commitments are secured for actions necessary for immediate 
implementation.
    The San Juan Initiative's model for improving protection is the 
best way to begin preparing for climate change at the local level. The 
effects of climate change will require new ideas and local solutions 
that change our management approach to focus less on the parcel and 
more on the scale of ecosystems.

Federal Support Needed for Better Understanding, Response to Climate 
        Change's Effects on Washington's Marine, Coastal Ecosystems
    In the interest of time, I will limit my remarks about necessary 
Federal support to salmon, as they are an excellent indicator of 
ecosystem health and our Northwest culture.
    Perhaps Jim Martin, former Chief of Oregon Fisheries and Salmon 
Adviser to Oregon Gov. John Kitzhaber, says it best in the ``Light in 
the River'' report on the effects of climate change on Columbia and 
Snake River salmon:

        ``Whether salmon can recover in the Columbia and Snake Basin 
        depends primarily on Federal policy. Will it keep backing into 
        the future with eyes on the past? Or will it turn forward, 
        scout the changes coming fast and act strategically?''

    The report recommends a restoration strategy with 4 primary 
features:

  <bullet> Immediate actions to reduce the impacts or buffer salmon 
        against them, with a priority focus on:

    <ctr-circle> reconnecting salmon to headwater habitats;

    <ctr-circle> protecting headwater flows and temperatures; and

    <ctr-circle> reducing mainstem Columbia and Snake River mortalities 
            to adult and especially juvenile salmon.

  <bullet> Population-specific analyses and actions as precise as 
        possible to the status, life histories and warming effects on 
        each species.

  <bullet> Assured feedback so that research and evaluation of effects 
        on species of both chose actions and warming impacts loop back 
        quickly and certainly to modify and add actions, on an annual 
        or biennial basis.

  <bullet> Assured commitment to the precautionary principle under the 
        Endangered Species Act--which, requires human actions, not 
        salmon, to bear more of the risks from global warming 
        uncertainties and unknowns.

Conclusion
    It is critical that the Federal Government be a leader in the 
efforts to address the effects of climate change on the marine and 
coastal ecosystems of Washington State and elsewhere in the Nation. 
Congress must provide increased support to NOAA, academic institutions 
and non-governmental organizations who are conducting important 
research and modeling that will be critical to coastal states and local 
communities as we develop strategies to address these issues. Congress 
must also provide more support for the state, regional and local 
programs already underway in Washington and elsewhere in our Nation. 
These ``bottom-up'' ecosystem-based efforts are developing local 
solutions and management strategies while engaging citizens at a level 
they understand. They will be incredibly valuable models for 
replication as the effects of climate change become more apparent over 
the coming years.
    Lastly, I want to emphasize that financial support is not enough. 
What we sorely need is a renewal of the kind of leadership, commitment 
and innovation at the Federal level that--in the past--defined the 
United States as the leading force in protecting the environment and 
the planet. I hope that as we move forward we can all work together to 
regain that position.
    Thank you very much for the opportunity to testify today.

    Senator Cantwell. Thank you, Mr. Ranker. Thank you for 
being here, and congratulations on that newborn daughter. And I 
am sure, along with Mr. Bishop, you are working hard to 
preserve Puget Sound and our oceans for the next generation.
    Well, thank you all for your testimony. It has been very 
helpful. This is obviously part of the official record for the 
Senate Commerce Committee, and certainly to have a perspective 
from the Puget Sound, the Northwest, and the West Coast is, I 
think, particularly important for the Nation.
    So I want to start, Dr. Klinger, with you on this point. 
Are we seeing--we certainly are seeing more of an impact in the 
West, on the West Coast of climate change in the sense of 
higher temperatures than in other places. So are we seeing the 
same impacts on the acidification? Are we at a higher rate of 
acidification on the West Coast? And if so, what are we seeing 
in Puget Sound specifically?
    Dr. Klinger. We know very little about the biological 
effects of acidification on the West Coast. But work by Dr. 
Feely and Dr. Sabine and others have demonstrated that there 
will be early and strong effects of acidification in coastal 
ecosystems in the Northwest and in the high-latitude systems.
    So that this area--the chemistry suggests that this area is 
particularly vulnerable. We do not yet have the biological or 
ecological data to link the chemistry to the biology.
    Senator Cantwell. Explain that. Explain why the chemistry 
puts us in the Northwest at greater risk on this issue of 
CO<INF>2</INF> in the oceans.
    Dr. Klinger. In nearshore areas, there was a recent paper 
by Scott Doney and his colleagues that suggest that not only 
due to the absorption of CO<INF>2</INF>, but also to other 
greenhouse gas emissions, urban areas such as the Puget Sound 
urban estuary is more vulnerable than open ocean areas to 
acidification. But there are other reasons, and those have to 
do with the age of the water and the circulation of it that 
make this region particularly vulnerable.
    Dr. Sabine is actually more of an expert on circulation 
than I am.
    Senator Cantwell. Dr. Sabine, do you want to comment on 
that? Are we in the West at greater risk, or are we seeing a 
more rapid acidification than in other waters across the 
Nation?
    Dr. Sabine. Certainly. As I mentioned previously, the deep 
waters of the open oceans naturally have much higher 
CO<INF>2</INF> levels than surface waters. And as the waters 
circulate from the North Atlantic, where they sink from the 
surface, down around through the Antarctic and back up into the 
North Pacific, we are basically the end of that conveyor belt 
that is moving water from the North Atlantic into the North 
Pacific.
    During that whole transit, which takes about 1,500 years, 
the oceans are accumulating CO<INF>2</INF> from all the dead 
organisms falling into the ocean. What that means along our 
coast here, the corrosive waters are the shallowest that they 
are anywhere else in the world. So when you then add on top of 
that the anthropogenic CO<INF>2</INF> that is coming in from 
the surface that combines with those naturally acidic waters, 
that makes our waters much more prone to the impacts.
    Senator Cantwell. So you are saying that shallow water and 
runoff are combining? Is that what you are saying because we 
live in an urban area and have more? Is that what you are----
    Dr. Sabine. No, ma'am. In the open ocean, the waters from 
the deep Pacific that are coming up have--are naturally very 
acidic. That is just the natural inversion of CO<INF>2</INF> 
across the ocean, the interface of those two waters make it 
more corrosive toward the organisms.
    And then what we are seeing from our most recent research 
is that water is now being drawn up onto the continental 
shelves, and that is what we are concerned about. We didn't 
expect for these levels of corrosive waters to get shallower 
for another 50 years. But, in fact, it is kind of a double 
whammy where adding CO<INF>2</INF> to the oceans is bringing 
the saturation horizon shallower. Now they have moved into the 
zone of waters that are being upwelled onto the shelf, so that 
they are physically being dragged up to the shallower depths 
more so than we expected in the past.
    Senator Cantwell. Well, Mr. Bishop brought up not wanting 
to sound so gloomy about this. But I do think it is important 
to understand unabated where we are going as it relates to the 
food chain and the Puget Sound, particularly as it relates to 
the impact on salmon and to our orca population. And I don't 
know if you could comment on where you think this current 
trajectory puts us on as it relates to the food chain and the 
availability.
    Dr. Sabine. The oceans are absorbing about 2 billion metric 
tons of carbon each year. That is a natural process. Whenever 
you increase CO<INF>2</INF> above any liquid, it will absorb 
that CO<INF>2</INF>. That is what the oceans are naturally 
doing. But that is changing the chemistry. And as long as 
CO<INF>2</INF> continues to increase in the atmosphere, the 
oceans will continue to absorb that.
    We are seeing these corrosive waters in the open ocean 
naturally getting shallower by about 1 to 2 meters each year. 
Every year, it is getting shallower and shallower and shallower 
until it eventually breaks the surface. That is going to 
continue basically no matter what. So what we are seeing is 
only going to get worse over time.
    Senator Cantwell. Dr. Klinger, would you like to comment on 
food chain and the impact on the food chain? Was it Dr. 
Koenings saying how it relates to salmon and the orca 
population? We are already obviously seeing impacts on both 
these species and moving a lot in these areas to try to recover 
and save these species. So what is the impact of this 
acidification, what is the trajectory we are on right now?
    Dr. Klinger. That is a very difficult question. Dr. 
Koenings spoke to the uncertainty on this issue, and I--there 
is no science that can inform that--an answer to that question 
at this time. There are concerns. There are early responses--
sadly, responses, for example, in the very small stages of fish 
and invertebrates that could easily be impacted.
    We would see impacts in those young recruits before we 
actually see impacts on adults. And what that would perhaps 
promise is reduced recruitment or a recruitment failure so that 
absence of new recruits to populations, it could apply to fish 
populations and to shellfish populations.
    But as I said, we don't know at this point what the impacts 
will be. The food web effects could be very large. In my own 
opinion, they are very unpredictable at this point.
    Senator Cantwell. Dr. Koenings, do you just want to comment 
on that?
    Dr. Koenings. As a resource manager that takes science and 
builds the management decisions that affect people's lives, it 
is a very difficult period for us to go through right now in 
terms of management of natural resources. I think we are seeing 
some very definite changes in our salmon populations in 
particular.
    The synchronicity of the fresh water phase, the marine 
phase is no longer as tight as it used to be, i.e., the young 
fish coming down from the fresh water hitting the ocean. That 
survival phase is not as great as it used to be. We are seeing 
a lot of changes in the fishing patterns of our fleets. We base 
our models that we use for management these days on historic 
fishing patterns.
    Those historic fishing patterns are basically not catching 
the same fish that they caught before because thermal routines 
are changing, and we haven't been able to keep up with those 
kinds of changes in our mathematical models that we rely on so 
heavily. So there are a lot of changes that are going on that 
we are already seeing that management has to respond to.
    And one way of responding to them is simply saying in light 
of all this uncertainty, we just need to cool it. We need to 
cut the harvest, for example, in certain species down to a 
level that we think is sustainable. Harvest rates on salmon 
that maybe in the past years were sustainable at 60 or 70 
percent harvest level, probably are now in the 20 or 30 percent 
harvest level today simply because of productivity of those 
stocks aren't as good as it used to be, and I think that trend 
is going to continue for a number of years. So until we can 
solve----
    Senator Cantwell. When you say ``productivity,'' you are 
referring to--?
    Dr. Koenings. The productivity, the number of, let us say, 
the number of salmon produced per generation, i.e., you have 
1,000 fish in this generation, you expect 3,000 or more of the 
next generation. Right now, we are getting maybe harvest rates 
a little bit higher. One thousand is producing 1,000. So we are 
seeing the harvest has to respond to that.
    So the productivity isn't as high as it used to be. And we 
have to respond as resource managers. So there are definitely 
changes going on, again, that I referred to as sort of bizarre 
in terms of their perspective.
    Senator Cantwell. Mr. Ranker, do you want to comment on 
this?
    Mr. Ranker. Just specifically, with regard to the food web 
effects, as we see alterations in--the research is suggesting, 
we see alterations in estuaries and nearshore environments, and 
we need not only focus on the individual salmon and the out-
migrating juvenile salmon which use those areas for foraging, 
but also the foraged fish, the herring. These small fish 
represent a significant majority of the salmon's diet, and then 
the salmon represent a significant majority of the southern 
resident orca whale population's diet.
    So, again, when we are looking at individual alterations 
and specific habitats, we need to recognize that there is 
impact on the food source going all the way up to the orca 
whale.
    Senator Cantwell. Well, I think this is exactly what we are 
seeing already. Yes, we are seeing a major impact on the food 
source for both of those species.
    So, Dr. Miles, I am saving all my questions for you as to 
the solutions. But for now, I am going to turn it over to my 
colleague, Congressman Inslee, and allow him to ask a few 
questions.
    Representative Inslee. Thank you.
    You know, this is very disturbing because, unfortunately, 
it has confirmed what I have been hearing since May 5, 1996, 
when we brought these scientists up and really dropped this 
bomb on Congress. And Mr. Bishop, you have been worried about 
this for a couple of weeks. I have been worried about it for a 
couple of years now, and the news gets worse.
    Basically, nature is seriously out of whack is what you are 
telling us. From an acidification standpoint, the ocean is on 
fire, and we need to respond as if there is a fire and we are 
not responding as if there is even a drizzle. And that is why I 
am hopeful that with your testimony, Senator Cantwell and I can 
make sure that others hear about it. It is very, very 
disturbing.
    Several things I want to make sure that people understand 
is clear, is it not, that climate change is separate from 
acidification? In other words, even if the Flat Earth Society 
is right and there is no climate change going on or if it is 
not caused by humans--even if the Flat Earth Society is right--
still we would have this clearly scientific consensus that the 
oceans are becoming significantly more acidic because of human-
caused CO<INF>2</INF>. Does everybody agree on that? Everybody 
agrees on it.
    I want to give people a sense of how significant that is. 
pH, the acidic scale, is a logarithmic scale which is designed 
to trip up sophomore physics students. But I have been told, I 
was looking at the NOAA literature, and it says--make sure that 
I read this right. The NOAA fact sheet on this says that the 
oceans have absorbed 50 percent of human-caused carbon dioxide. 
And it says, ``This has caused an increase in hydrogen ion 
acidity of about 30 percent since the start of the industrial 
age through a process known as ocean acidification.''
    Now could somebody just briefly describe if there is a 30 
percent increase in acidification, the ions that are associated 
with acidification, why does it only show a tiny little change 
in the logarithmic pH of the ocean? Just very briefly so that 
the Flat Earth Society can get this.
    Dr. Sabine. Why is everyone looking at me? OK. As you said, 
the pH scale is logarithmic. pH 7 is neutral. Numbers larger 
than 7 are bases like sodium hydroxide or Alka-Seltzer. Those 
are basic compounds. Numbers less than 7 are acidic like acids, 
hydrochloric acid, or lemon juice is acidic.
    But it covers such a wide range that this logarithmic scale 
explains it. It is the concentration of hydrogen ions that 
actually affects the chemistry, and so it depends on where you 
start. The oceans are actually slightly base. They had a pH--in 
the pre-industrial period, they had a pH of about 8.1. Now they 
have got a pH of about 8.0. So that is about 0.1 of a pH. But 
because of the logarithmic scale, that represents about a 30 
percent change in the actual concentration of hydrogen, the 
individual hydrogen ions.
    Representative Inslee. Now, as a layperson, if you are 
going to have a 30 percent change in the significant part of 
the acid-base relationship of the water, it would shock me if 
there wasn't very significant changes in the biology of the 
ocean. I want to ask you about what we know about that.
    In the NOAA material and other material, I have read that 
we do know that at twice pre-industrial levels, if we get to 
parts per million of twice pre-industrial levels, which we are 
clearly headed to in this century if things don't change, and 
more, that there would be as much as an 80 percent reduction in 
calcification in some coral species and 5 to 50 percent 
reduction in calcification, the ability to form calcium, the 
structural part of these organisms associated with this? Are 
those about the right numbers?
    Dr. Sabine. Yes.
    Representative Inslee. So if I told you that humans were 
going to have an 80 percent reduction in our ability to form 
bones, the calcification process, I think that would be pretty 
disturbing to people if that happened within this century.
    Isn't it fair to say from the science we know today, that 
is a distinct possibility for the organisms that live in the 
sea?
    Dr. Sabine. For the organisms that specifically produce 
calcium carbonate skeletons, yes. Now--I am sorry.
    Representative Inslee. Yes. So here is what is disturbing, 
the most disturbing thing to me in all this. With all due 
respect to clams and oysters--and I can see--around clams and 
oysters--the very basic bottom of the food chain are 
zooplankton, pteropods, and the like. All the life in the ocean 
is based upon this bottom life in the food chain.
    And I am told that something like 40 to 50 percent of all 
those little organisms that are the basis, eventually up to the 
blue whale and orcas, have some calcification process involved 
in their system that could be disrupted by the somewhere 50 to 
80 percent reduction in calcification. Is that right?
    Dr. Sabine. Yes.
    Representative Inslee. Now, to me, that just scares the 
living heck out of me. We get 7 to 10 percent of our protein 
from the oceans. And from that, it seems to me that from what 
you are telling us, there is a significant chance of a collapse 
in the food chain in the oceans. Is that what we are looking at 
as a possibility?
    Dr. Sabine. If I could just give you an example? We did a 
study a while back where we took living pteropods, these little 
marine snails that float around in the ocean, living pteropods 
out of the North Pacific and placed them into waters that 
coincidentally were very similar to the waters that we saw 
being upwelled off of the northern California coast this last 
summer. So, high CO<INF>2</INF> waters, and we actually saw the 
shells dissolving off of these living organisms. They were 
dissolving off of the pteropods as they were swimming around.
    These pteropods have been shown to comprise as much as 40 
percent of Pacific pink salmon diet. So, yes, if we don't know 
exactly how all the ecosystems are going to respond because 
there is a complex assembly to all kinds of different types of 
organisms. Some of them do not produce calcium-permeable 
skeletons. But we certainly will change the ecosystem 
structure, and that will have impacts on our food chain.
    Representative Inslee. Dr. Klinger?
    Dr. Klinger. I would like to add, in response to your 
question, that it is not just a problem of calcification or 
lack of calcification. As we change the concentration of 
hydrogen ions in the water, in the surface waters, and as we 
change the concentration of calcium ions that we haven't really 
talked much about that yet, that has--well, it could have 
profound effects on the physiology of calcified and non-
calcified organisms.
    So ion flux across membranes could disrupt basic biological 
functions even in non-calcified organisms, and this is an area 
of research I think we really need to pursue actively.
    In regard to your comment about collapse of food chains, my 
own opinion is that we won't see a total collapse of food 
chains, but we will see substitutions, changes in the--we may 
end up with food chains or food webs that are highly 
undesirable and are not productive for the needs that we use 
them today.
    Representative Inslee. I can tell you that my constituents 
do not relish a sport season for jellyfish as a substitute for 
a sport season for salmon. So I share your sentiment.
    Dr. Klinger. That is right. So the food webs could be 
radically different.
    Representative Inslee. Well, I could tell you if Al Qaeda 
had some bomb that could cause a potential collapse of the food 
chain, the U.S. Congress would be active. And I hope that we 
start to act on this. I have much more questions, but I will 
defer to the Senator.
    Senator Cantwell. Dr. Miles, let us talk a little bit about 
a solution as it relates to just the fisheries management side 
of the equation. And obviously, there are many elements to 
this. But you touched on a little bit in your testimony about 
specific challenges, what should we do to start managing our 
fisheries different relative to ocean acidification?
    Dr. Miles. Four things I can think of. Biology is the big 
hole at the moment with respect to the acidification problem. 
We know very little. In specificity, we know a few things. But 
there needs to be a really major research effort on this 
particular problem, looking at it in whole regional ecosystem 
context. And I think that is the objective behind the 
initiative of the National Research Council to produce a 
research agenda to respond to this problem. Congressman Inslee 
is aware of that, which is great.
    In the meantime, we can't wait for that to happen. Adopt, 
as Dr. Koenings said, adopt a risk management approach to 
managing fisheries, and there are a number of ways that one can 
adopt a risk management approach, and I am not going to try to 
sell you on any single approach here. But when you look at the 
combination of multiple stressors, the decisions that will have 
to be made will have adverse effects on the way fisheries are 
currently--commercial fisheries are currently organized.
    The third thing is reduce stressors. Take, for instance, 
you asked about salmon in Puget Sound. Well, we know that they 
will face, as a result of shoaling, an undersaturated horizon 
during the upwelling period, say, between April and September. 
That is not the only major challenge. Climate change is, (a) 
increasing the temperature of the streams and, (b) is reducing 
the water, the stream flow that they require. So that by 
August, September, they are in trouble. How do we deal with 
that problem, which is a very serious problem in Washington 
State, the future of the streams for migrating salmon in the 
summer.
    Then they will get to the Sound in, say, from May to June, 
and they will meet additional stressors, and we have to regard 
then land use planning as a little different part of fishery 
planning. So you look at the population growth rates for some 
of the time, and you look at the way the coastal development is 
proceeding, that is another problem with salmon and other 
species.
    Senator Cantwell. You are saying land use planning as it 
relates to pollutants, stressors?
    Dr. Miles. And things like temperatures will be what we, 
you know--all of those things will really matter. The last 
thing we need to do is----
    Senator Cantwell. So things of that nature that will allow 
water to flow directly back into?
    Dr. Miles. --and the last thing we have to do is to monitor 
so that we know what is happening as it is happening. And the 
initial attempt to monitor with respect to carbon in the Puget 
Sound is collaboration between Mr. Sabine's group, the lab at 
the University of Washington, and some others. But that is just 
the beginning. It didn't exist before.
    We have to do this systematically. It is risk management, 
multiple stress, awareness on action, and yes, ecosystem risk 
management. But we have to worry about the rate of change, and 
it may be as Dr. Klinger implied that the ecosystem we have now 
is not the ecosystem we will have 10 years from now.
    Senator Cantwell. And then when you are talking about risk 
management strategies, just--and I know you didn't want to 
focus on any one in particular, but what is different in that 
scenario than what we are doing today?
    Dr. Miles. Oh, take, for instance, the Germans, they have 
proposed, their scientists have proposed a system of 
guardrails.
    Senator Cantwell. Of what?
    Dr. Miles. Guardrails.
    Senator Cantwell. OK.
    Dr. Miles. These are quantitatively defined standards that 
set the picture from--that imply what changes we have to make 
to prevent the increase in the global climate, global 
temperature, prevent that exceeding, say, 2.5 degrees 
centigrade. Whatever it takes to do that, you have to do to 
get----
    Senator Cantwell. So a much higher standard than what we 
have been talking about as far as they had legislation----
    Dr. Miles. --then they have calculated what it will take to 
prevent the increase of acidification beyond certain levels in 
an annual range, and that would be another one. And there are 
three or four of these examples, but that is one approach to 
managing.
    Senator Cantwell. --guardrails sounds like a good idea to 
me. We should at least be pursuing that strategy as it relates 
to impact and evolving the legislation.
    One area we haven't talked about yet in much detail is 
obviously the impact of the warming of our oceans and waters 
and the actual sea level rise and the impact that it could have 
on lowlands and wetlands in Washington State. Now there are 
some projections here for the size of the rise in the next 20 
to 30 years.
    Dr. Koenings, we have something--I don't know if this is 
your expertise, or I am not sure who on the panel has the 
answer to this as it relates to the impact for us as a region? 
What are some of the things that we should be undertaking now?
    Dr. Koenings. Well, I think there will be some drastic 
impacts. For example, the agriculture industry would be 
susceptible to large-scale changes in water fluctuation and 
water levels. Myself, I took it seriously. I bought at home a 
50-[inaudible] tank. So I am pretty safe on that. But it is not 
really my area of expertise in terms of going into the actual 
dynamics of what a sea level rise may be other than backing up 
the areas.
    But if I could make one comment on some previous testimony? 
The big fear that I have as we go into this whole reaction to 
the acidification, global warming changes, et cetera, is you 
get into the paralysis by analysis. There isn't enough 
connection. There isn't enough certainty. There isn't enough 
data populating our models to make accurate predictions of what 
may, in fact, be in front of us.
    But yet we are already, I think, seeing changes that are 
going on that lead us to believe that we need to take action. 
That is what I said before. We need to be really precautionary 
in terms of our resource management because we don't know what 
the future has in front of us. But we do know something is 
going on, and we can't wait to take action until our models are 
populated, until we validate our predictions and those kind of 
things.
    That is a hard thing for people to accept. It is a hard 
thing to make change when you don't have the basic science to 
say that here is the causal connection.
    But yet things are happening that lead us to believe we 
have got to take the steps, and that is one thing that the 
government wants us to do is to go ahead and make sure there is 
environmental sustainability here in Washington for the future 
by being bold and taking those steps.
    Senator Cantwell. Dr. Klinger, Dr. Sabine, do you want to 
comment on sea level rise or what we need to do to plan for 
that? And obviously, we have quite a few areas here in 
Washington State that would be impacted.
    Dr. Klinger. I am not an expert on the sea level rise. From 
a biological standpoint or an ecological standpoint, it is 
likely that we will see a shift in nearshore habitats and in 
the distribution of those habitats. Those--at least some of 
those shifts are likely to negatively impact communities--
marine communities that we value.
    So I think we have to be smarter. I think we have to engage 
in protection of the habitats that we have now. And we may have 
to come up with some really innovative restoration strategies 
that are sort of more forward-thinking than those that we have 
implemented so far.
    Dr. Sabine. I am also not an expert on sea level rise, but 
I would just like to add the fact that the oceans actually 
contain the majority of the heat at the surface of the Earth. 
The increasing temperatures, most of that heat is being 
absorbed into the oceans, and the oceans have tremendous 
momentum.
    So even if we were to make changes today that would change 
the temperature of the planet, there is so much momentum in the 
absorption of the heat and consequences of that are thermal 
expansion--the expansion of the oceans, which increase the sea 
level--that the ocean sea levels will continue to rise over 
centuries to perhaps millennia as a result of what we are doing 
right now, today, even if we were to stop it.
    So I think we need to study and evaluate what the 
consequences of this will be because there is such a tremendous 
momentum that once you have got that ball rolling, once sea 
level is rising, it will continue, and you can't stop it.
    And I just also would like to comment on the previous 
statement about the acting while we still have large 
uncertainties. And that is just to reiterate the point that I 
believe you made, Congressman Inslee, that while there are many 
uncertainties associated with the ecosystem responses to ocean 
acidification, ocean acidification is a very clear consequence 
of rising atmospheric CO<INF>2</INF>. And the chemistry is 
irrefutable.
    We are measuring those changes, and we know that they are 
happening and that will also continue as long as CO<INF>2</INF> 
is. So that is not really a matter for debate.
    Senator Cantwell. But then we should be planning 
appropriately and particularly you are saying no matter what we 
do, if sea level rises, the temperature is going to continue, I 
don't know. Some statistics I have seen say 40,000 to 50,000 
Washingtonians could be displaced by this, to say nothing of 
the impact it could have on Mr. Bishop and other shellfish 
growers in the industry. But it seems to me if that is 
inevitable, no matter what we do moving forward, we ought to 
have better plans in place to address that.
    Dr. Sabine. That is right. But I also go back to what Dr. 
Koenings pointed out, which is the rate of change is also 
critically important here. That while we can't at this point 
stop the sea level rise, and it is likely to take a long time 
to deal with rising CO<INF>2</INF>, that even just reducing the 
rate at which we are changing can have a tremendous impact on 
the resulting consequences.
    Senator Cantwell. Thank you.
    Congressman Inslee?
    Representative Inslee. Mr. Ranker, do you have something 
more to add?
    Mr. Ranker. Just very quickly, specific to your original 
question, Senator Cantwell, regarding the impact of sea level 
rise, something that we haven't discussed as much that was 
mentioned briefly in a couple of testimonies is the changes in 
fresh water flows which dramatically impacts our aquifer 
recharge. So when we start looking at sea level rise, there are 
two other impacts that we need to consider and consider very 
seriously.
    One is the ability of our fresh water systems from our snow 
packs, rivers, and lakes with regard to aquifer recharge, which 
is the drinking water supply for most Washington citizens. The 
other thing that we are experiencing in the San Juan Islands 
now is the very harsh reality of salt water intrusion on our 
wells. Except for central Puget Sound, the majority of our 
homeowners have their own wells, and in south Sound, north 
Sound, and particularly out on the open ocean coast. And if you 
see even the slightest sea level rise, you significantly raise 
the chances of salt water intrusion on your wells.
    As a past member of my county board of health, the harsh 
news is if you go above a certain percentage regarding salt 
water intrusion, you have got to shut down. There is not an 
alternative, except for the bottled water and bring it in. We 
have some people on the outer Sound who are doing that by the 
truckload. It is costing them 29 cents a gallon for their own 
water. So that is another impact that hasn't been touched on 
today.
    Representative Inslee. Thanks. I am reading a book called 
``The Most Important Fish in the Sea.'' It is about the 
collapse of the Manhattan stocks in the Atlantic. And it was 
pointed out that New York Harbor used to have a really 
productive--biologically, it was very, very productive. All 
kinds of, I think there were----
    And listening to these multiple stressors, increased 
temperature in our streams and the Hood Canal dead zone, 
increase in acidification, changes in the hydrological cycle, 
if things do not change, if we continue on this course of 
acidification, the warming, changes in our hydrological cycle, 
would there come a point or could there become a point where we 
suffer the same biological decline as New York Harbor, 
eventually?
    Dr. Koenings. I think that is a very good question, and 
that is one of the things that certainly we here in the State 
of Washington are trying to avoid by setting up a whole new 
agency dealing with--under Governor Gregoire's leadership, a 
whole agency that deals with Puget Sound. And you are very 
familiar with that. You are one of the leaders of that as well.
    So one of the things we are trying to do, of course, is to 
set up so we avoid that kind of fate, and we somehow can 
restructure, reshape, and reform what we do in Puget Sound so 
that we don't get into the fix that we are in in terms of the 
New York Harbor and some of the other industrial areas around 
the country, the Chesapeake Bay, down in Florida, Louisiana, 
California. They have all suffered sort of the same kind of 
fate. And we are determined here in Washington to avoid that.
    Representative Inslee. We appreciate the Governor's 
leadership on that. I want to talk about on a larger basis what 
we have to do to skin this cat. I really appreciate that you 
have very prudent resource management. We have got to guard 
against uncertainty. But I am going to lay the cards on the 
table. As long as we are putting out megatons of carbon 
dioxide, we are just sort of doomed in these biological systems 
no matter how good a job we do in the fishery and the 
management and the like.
    And I just want to talk about what we have to do to solve 
this problem. I had said earlier that we could have an 80 
percent reduction in calcification if we get to twice the parts 
per million as in pre-industrial times. That is about 450 parts 
per million, which we are headed to in this century if things 
do not change.
    I have been told that to stop at that level, to stop the 
rise at twice the pre-industrial levels, we in the 
industrialized world have to reduce our carbon dioxide 
emissions by about 80 percent per capita simply to stop the 
runaway freight train before we are past the point of twice 
pre-industrial levels that we know is going to have adverse 
consequences.
    And so, I mean each of us have to reduce our carbon 
footprint by four-fifths by the year 2050 to prevent going past 
twice pre-industrialized levels. Is that a fair assessment on 
what we need to be shooting at to really solve this problem, or 
should we have different targets of emission?
    Mr. Bishop. Trying to come to grips with this huge problem 
of ocean acidification strikes me is like trying to fight a 
beach ball that is so big you can't get a grip on it. You 
likened it to a bomb. The knowledge of what is coming is like a 
bomb. The old saying is that the pen is mightier than the 
sword. I would like to think that ideas can be more powerful 
than laws. This is how it would have to work.
    Shellfish growers measure progress on design, and that is 
the way this problem has to be dealt with--land use 
regulations, daily behavior changes. We have to grind away at 
it. You have to know what you are doing and which direction you 
are going to go, but it can't be solved in one fell swoop.
    What it means to me personally is that we have 7 years left 
on our mortgage. I would like to be able to grow shellfish for 
at least 7 more years.
    Representative Inslee. Anyone else? Dr. Miles, are those 
numbers about right?
    Dr. Miles. Yes, but a world of 500 ppm is a world of 
enormous environmental disruption.
    Representative Inslee. So even if we reduce our emissions 
by 80 percent by 2050, we are still going to suffer significant 
environmental damage? Is that right?
    Dr. Miles. Yes. Yes.
    Representative Inslee. Which, to me, is not a reason for 
inaction, it is a reason for hastening the action. The fact 
that we are in difficult straits means that we should be acting 
sooner rather than later. And I can tell you that I am 
optimistic in our ability to do that.
    I have been working on something called New Apollo Energy 
Project, which basically says that we need a new technological 
base rather than our carbon-based system. I believe we can 
achieve that. Senator Cantwell has been doing incredible work 
in the Senate to develop one.
    And if we do that, if we use the optimistic attitude of 
Americans and the intellectual capital that is available to us, 
we are going to solve this problem. I believe that. If the U.S. 
Congress acts. And I just want to thank you for your efforts. 
We are going to share this information as widely as possible. 
We will get that Flat Earth Society to wake up yet.
    Thank you.
    Somebody wants to--Dr. Klinger?
    Dr. Klinger. I would just like to comment. Dr. Sabine 
brought up the concept of rate and rates of change, and 
although we can't likely reverse the changes that we have set 
in motion, if we slow the rate at which we are changing the 
environment, then we give the organisms a chance to evolve and 
adapt to those changes.
    So adaptation may be a potential where genetic evolution is 
very rate dependent. The slower you go, the more likely we are 
that some organisms may be able to adapt and adjust to these 
new environmental conditions. So rates are important, and we 
should slow down.
    Representative Inslee. So our theory or our sort of motif 
should be give the clams a chance.
    Senator Cantwell. Well, I would thank again the staff of 
the aquarium and John Braden for hosting us being here, and 
obviously my colleague, Congressman Inslee, for being here and 
adding his expertise and knowledge to this. And certainly, this 
information is free to be shared with the House of 
Representatives as well.
    And I want to thank the Commerce Committee staff for 
traveling here and staffing the hearing this weekend. As you 
can see, we produced a little Northwest sunshine as part of 
that.
    I want to thank the witnesses especially. Thank you for 
illuminating this issue, which for many people today have been 
hearing about the impacts of global warming and the climate 
change, and yet I feel that the oceans have been missing in the 
discussion or at least not in the limelight that they really 
need to have, given the significant impact and damage that has 
already been done today, the challenges that that puts forth in 
front of us to save these various fisheries and to save the 
health of our oceans.
    So I want to thank you for being leaders in your fields and 
helping us illuminate this issue. Mr. Bishop and Mr. Ranker, 
thank you for your uniquely local perspective. I know these are 
big challenges. I know that given the consequence of what could 
happen to our oceans' food chain, what could happen to the 
health of the oceans overall, it does seem quite daunting.
    But, Mr. Bishop, you remind me, we had an FCC Commissioner 
who just died recently, Newton Minnow, who, when he was taking 
John Kennedy around NASA, the President said to him, ``how come 
we aren't launching men into--astronauts into orbit instead of 
satellites?'' And Mr. Minnow said, ``well, we are launching the 
satellites because ideas last longer than people do.''
    And I think your notion that there are ingenious ideas that 
could help us and that we have to put the American scientific 
community to task at that, I think, is really the focus of this 
hearing.
    While we have introduced legislation on adaptation, on 
acidification, and we will be having a debate next week when we 
come back on global climate change and legislation moving 
forward, I think that the health of our oceans are in such 
peril that it takes much more aggressive action than we have 
currently put forth in the U.S. Senate.
    So I thank the Northwest for helping me to paint a picture 
of this that is very clear and very challenging, but we are a 
place of ideas, and we should not be daunted by this task. We 
look forward to working with all of you in the future.
    And again, thank you for being here to testify in this 
important Subcommittee hearing.
    This Committee is adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
